<html>
<title> - EXAMINING THE DEPARTMENT OF DEFENSE'S DEPLOYMENT TO THE U.S.-MEXICO BORDER</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
  EXAMINING THE DEPARTMENT OF DEFENSE'S DEPLOYMENT TO THE U.S.-MEXICO 
                                 BORDER

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                     BORDER SECURITY, FACILITATION,
                             AND OPERATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 20, 2019

                               __________

                           Serial No. 116-27

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                               
                               
                               
                              ______
 
               U.S. GOVERNMENT PUBLISHING OFFICE 
 38-431 PDF              WASHINGTON : 2019                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           John Ratcliffe, Texas
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             Van Taylor, Texas
Emanuel Cleaver, Missouri            John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 ------                                

     SUBCOMMITTEE ON BORDER SECURITY, FACILITATION, AND OPERATIONS

                 Kathleen M. Rice, New York, Chairwoman
Donald M. Payne, Jr., New Jersey     Clay Higgins, Louisiana, Ranking 
J. Luis Correa, California               Member
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Al Green, Texas                      John Joyce, Pennsylvania
Yvette D. Clarke, New York           Michael Guest, Mississippi
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
             Alexandra Carnes, Subcommittee Staff Director
          Emily Trapani, Minority Subcommittee Staff Director
          
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Kathleen M. Rice, a Representative in Congress From 
  the State of New York, and Chairwoman, Subcommittee on Border 
  Security, Facilitation, and Operations:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Clay Higgins, a Representative in Congress From the 
  State of Louisiana, and Ranking Member, Subcommittee on Border 
  Security, Facilitation, and Operations:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7

                               Witnesses

Chief Carla Provost, U.S. Border Patrol, U.S. Customs and Border 
  Protection, Department of Homeland Security:
  Oral Statement.................................................     9
  Prepared Statement.............................................    10
Mr. Robert G. Salesses, Deputy Assistant Secretary of Defense, 
  Homeland Defense Integration and Defense Support of Civil 
  Authorities, Department of Defense:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Major General Michael T. McGuire, Adjutant General for Arizona, 
  Director, Arizona Department of Emergency and Military Affairs:
  Oral Statement.................................................    19
  Prepared Statement.............................................    21

                                Appendix

Questions From Chairwoman Kathleen M. Rice for Carla Provost.....    51
Questions From Chairman Bennie G. Thompson for Carla Provost.....    51
Questions From Ranking Member Clay Higgins for Carla Provost.....    51
Questions From Chairwoman Kathleen M. Rice for Robert G. Salesses    52
Questions From Chairman Bennie G. Thompson for Robert G. Salesses    56


  EXAMINING THE DEPARTMENT OF DEFENSE'S DEPLOYMENT TO THE U.S.-MEXICO 
                                 BORDER

                              ----------                              


                        Thursday, June 20, 2019

             U.S. House of Representatives,
                    Committee on Homeland Security,
                          Subcommittee on Border Security, 
                              Facilitation, and Operations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:01 a.m. in 
room 310, Cannon House Building, Hon. Kathleen M. Rice 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Rice, Correa, Torres Small, Green 
of Texas, Clarke, Thompson, Higgins, Lesko, Joyce, Guest, 
Peters, and Jackson Lee.
    Miss Rice. The Subcommittee on Border Security Facilitation 
and Operations will come to order. The subcommittee is meeting 
today to receive testimony on examining the Department of 
Defense's deployment to the U.S.-Mexico border.
    Good morning. I would like to start by welcoming our 
witnesses who are here today to provide information on the 
support that the Department of Defense is lending to the 
Department of Homeland Security at the U.S.-Mexico border. The 
DoD's presence on the border is not new. Their support of DHS 
operations has indeed evolved over the past year. Right now it 
would appear that this administration is testing the limits of 
that relationship.
    Since the first large group of migrants began traveling 
north from Central America in April of last year, fleeing 
violence, poverty, and persecution within their home countries, 
the President and DHS have relied heavily upon the DoD to 
support their border security operations. It is important to 
note here that the April 2018 caravan, the President's 
principal reason for first deploying the National Guard, shrunk 
down from an estimated 1,500 migrants to approximately 300. 
Nevertheless, the President issued a memorandum at that time 
directing the Secretary of Defense to deploy as many as 4,000 
National Guard troops to the Southern Border. Today, 
approximately 2,300 National Guard troops remained deployed in 
Texas and Arizona to support more than 16,000 Border Patrol 
agents who are also currently assigned to border region.
    In early October 2018, there were more reports of another 
caravan originating in Central America. Despite advanced 
warning and ample time to plan and scale their response, CBP 
seemingly did not prepare for the surge in arrivals nor did the 
Department ask Congress to increase its capacity so that it 
could more effectively process migrant families. In fact, no 
such request was made of Congress until earlier this year. 
Instead, the President preferred a show of force and requested 
the deployment of 5,200 active-duty military personnel to the 
Southern Border a week before the 2018 midterm elections. Most 
of these personnel were tasked with hardening ports of entry, 
providing aerial surveillance between ports of entry, as well 
as providing medical care, transportation, and other services 
to support Border Patrol.
    By December 2018, there wasn't much more for these troops 
to do, and their days were largely devoid of any meaningful 
duties. Recently, Congress was notified of similar deployment 
of DoD personnel to paint 1 mile of border barrier in 
California. Personally it is difficult to believe that the 
administration is doing everything in its power to resolve the 
humanitarian crisis at our Southern Border when Congress 
receives notifications such as this one.
    In February, the President declared a National emergency 
after a 35-day Government shutdown which was caused over a 
fundamental disagreement over the necessity of a border wall. 
After Congress denied this funding request, the President 
sought to divert billions of dollars in previously-appropriated 
defense funds to build this wall. Now it seems the 
administration is planning a multi-year deployment of active-
duty soldiers to the Southern Border.
    Taken together, these actions point to a steep escalation 
in the DoD's role at our Southern Border, and these policy 
decisions will have consequences and long-term effects. Broad 
questions remain about whether the actions this administration 
has taken are an appropriate use of DoD and DHS resources.
    Continued reliance by DHS on the DoD for handling the 
Southern Border will likely have ramifications on both 
departments' ability to carry out their respective missions. 
Both departments are accountable to the American people through 
Congress--both departments are accountable to the American 
people through Congress, and I ask that both DHS and DoD 
leadership commit to transparency by sharing any and all 
requested information with this committee and the other 
oversight committees moving forward.
    [The statement of Miss Rice follows:]
                Statement of Chairwoman Kathleen M. Rice
                             June 20, 2019
    Though DoD's presence on the border is not new, their support of 
DHS operations has indeed evolved over the past year. And right now, it 
would appear that this administration is testing the limits of that 
relationship. Since the first large group of migrants began traveling 
north from Central Americain April of last year--fleeing violence, 
poverty, and persecution within their home countries--the President and 
DHS have relied heavily upon the DoD to support their border security 
operations.
    It is important to note here that the April 2018 ``caravan''--the 
President's principle reason for first deploying the National Guard--
shrunk down from an estimated 1,500 migrants to approximately 300. 
Nevertheless, the President issued a memorandum at that time directing 
the Secretary of Defense to deploy as many as 4,000 National Guard 
troops to the Southern Border. And today, approximately 2,300 National 
Guard troops remain deployed in Texas, Arizona, New Mexico, and 
California to support more than 16,000 Border Patrol agents who are 
also currently assigned to border region.
    In early October 2018, there were more reports of another caravan 
originating in Central America. Despite advanced warning and ample time 
to plan and scale their response, CBP seemingly did not prepare for the 
surge in arrivals, nor did the Department or ask Congress to increase 
its capacity so that it could more effectively process migrant 
families.
    In fact, no such request was made of Congress until earlier this 
year. Instead, the President preferred a ``show of force'' and 
requested the deployment of 5,200 active-duty military personnel to the 
Southern Border a week before the 2018 midterm elections. Most of these 
personnel were tasked with hardening ports of entry; providing aerial 
surveillance between ports of entry; as well as providing medical care, 
transportation, and other services to support Border Patrol. By 
December 2018, there wasn't much more for these troops to do, and their 
days were largely devoid of any meaningful duties. And recently, 
Congress was notified of similar deployment of for DoD personnel paint 
1 mile of border barrier in California.
    Personally, it's difficult to believe that the administration is 
doing everything in its power to resolve the humanitarian crisis at our 
Southern Border when Congress receives notifications such as this one. 
In February, the President declared a National emergency after a 35-day 
Government shutdown, which was caused over a fundamental disagreement 
over the necessity of a border wall. After Congress denied this funding 
request, the President sought to divert billions of dollars in 
previously-appropriated defense funds to build this wall. And now, it 
seems the administration is planning a multi-year deployment of active-
duty soldiers to the Southern Border. Taken together, these actions 
point to a steep escalation in the DoD's role at our Southern Border. 
And these policy decisions will have consequences and long-term 
effects. Broad questions remain about whether the actions this 
administration has taken are an appropriate use of DoD and DHS 
resources.
    Continued reliance by DHS on the DoD for handling the Southern 
Border will likely have ramifications on both departments' ability to 
carry out their respective missions. Both Departments are accountable 
to the American people though Congress, and I ask that both DHS and DoD 
leadership commit to transparency by sharing any and all requested 
information with this committee and the other oversight committees 
moving forward.

    Miss Rice. I thank our witnesses for joining us for this 
discussion today. I now recognize the Ranking Member of the 
subcommittee, the gentleman from Louisiana, Mr. Higgins.
    Mr. Higgins. Thank you, Madam Chair. I thank you, gentlemen 
and madam, for your service to our country.
    The situation at the Southwest Border is beyond a crisis. 
Even the liberal New York Times editorial board, the Wall 
Street Journal editorial board, the Senate minority leader, 
Chuck Schumer are calling on House Democrats to act. 
Unfortunately, our Majority had denied the House multiple 
opportunities to fund the needed supplemental humanitarian 
assistance that has been called for; 17 times, 17 times House 
Democrats have rejected immediate humanitarian border aid.
    Increasing numbers of migrants are bringing children on the 
dangerous journey to our border more than ever before with the 
most significant inflection point being the weakening 
immigration laws caused by the Flores settlement extension to 
families.
    There are more than 17,000 migrants in Customs and Border 
Protection custody along our Southwest Border in facilities 
designed to hold 4,000. My colleagues are quick to point out 
that people have died. But the Majority has repeatedly rejected 
our effort to provide immediate humanitarian support.
    Customs and Border Protection have been forced to release 
more than 77,000 people who have entered our country illegally 
on a notice to appear, a summons. This fuels the cartel 
propaganda that if you step foot on U.S. soil, you can stay. We 
are seeing an increase in apprehensions in migrants originating 
outside the Western Hemisphere including Africa underscoring 
that this crisis has a global security scope.
    More than 40 percent of law enforcement officers tasked 
with securing our border are tied up doing administrative and 
processing tasks. They have been pulled away from their primary 
security mission. Further, 6 Border Patrol interior checkpoints 
which catch a significant percent of hard narcotics brought 
into our country have been closed to redirect agents to process 
migrants. Hundreds of Department of Homeland Security employees 
are now at the border to assist with processing which 
diminishes the readiness of other components to carry out their 
mission. Worsening this crisis, my colleagues across the aisle 
have zeroed out funding for additional Border Patrol agents 
refusing to provide backup for the men and women on the front 
lines. This hearing is well-timed.
    Today we have the opportunity to hear more about the 
National security aspect of this crisis at the border. There 
have been documented media reports that terrorist groups are 
calling on followers to blend in with migrants to gain entry 
into the United States. We know from DHS intel sources that 
cartels are openly chartering buses to drop hundreds of people 
at a time in remote areas of the border, and cartels run large 
drug loads through while agents are occupied by the migrant 
group.
    Criminal organizations are charging up to $7,000 per person 
to smuggle the human beings across the border. It is 
incredible. More than 144,000 migrants were encountered by 
Customs and Border Protection in the May time frame at the 
border. That is more than a billion dollars last month alone 
potentially flowing to criminal cartels.
    I am encouraged by the DoD presence at the border to 
bolster Customs and Border Protection efforts and help return 
agents to the line. Such a deployment is not a new concept. CBP 
and the National Guard have a long-standing working 
relationship on the counter drug task forces as well as past 
operational deployments to the border under President Obama's 
administration and President George W. Bush.
    National Guard personnel are assisting with logistical and 
administrative support operating sensor and imaging detection 
systems, providing mobile communications, augmenting border-
related intelligence efforts, and many other functions.
    Separately, in response to nearly 8,000-person caravan 
approaching the border November 2018, President Trump sent 
troops from the Army Corps of Engineers, military police, 
command and control teams in aviation, engineering, and 
medical, and pilots to fly helicopters to drop Border Patrol 
agents in areas where border breaches had occurred.
    The Army Corps is efficiently constructing enhanced 
physical barriers in some places along the border where it is 
needed. We need more. DoD personnel also manage CBP sensors and 
surveillance equipment to alert the field agents of illicit 
activity.
    I would like to thank the witnesses before us here today 
and ask that they speak to the situation on the ground and the 
current threat environment, the resource constraints you are 
operating under, and the long-term strategy for the mission. 
Your service is to be noted. You are deeply appreciated.
    Madam Chair, I yield back.
    [The statement of Ranking Member Higgins follows:]
                Statement of Ranking Member Clay Higgins
                             June 20, 2019
    The situation at the Southwest Border is beyond a crisis.
    Even the liberal New York Times Editorial Board, the Wall Street 
Journal Editorial Board, and Senate Minority Leader Chuck Schumer are 
calling on House Democrats to act.
    Unfortunately, our Majority has denied the House multiple 
opportunities to fund the needed supplemental humanitarian assistance. 
Seventeen times. Seventeen times House Democrats have rejected 
immediate humanitarian border aid.
    Increasing numbers of migrants are bringing children on the 
dangerous journey to our border, more than ever before, with the most 
significant inflection point being the weakening of our immigration 
laws by the Flores settlement extension to families.
    There are more than 17,000 migrants in Customs and Border 
Protection custody along our Southwest Border in facilities designed to 
hold 4,000.
    My colleagues are quick to point out that people have died. But the 
Majority has repeatedly rejected our effort to provide immediate 
humanitarian support.
    CBP has been forced to release more than 77,000 people who entered 
our country illegally on a Notice to Appear, fueling cartel propaganda 
that if you step foot on U.S. soil, you can stay.
    We are seeing an increase in apprehensions of migrants originating 
outside the Western Hemisphere, including Africa, underscoring that 
this crisis has a global security scope.
    More than 40 percent of law enforcement officers tasked with 
securing the border are tied up doing administrative and processing 
tasks. They have been pulled away from their primary security mission.
    Further, 6 Border Patrol interior checkpoints, which catch a 
significant percent of hard narcotics, have been closed to redirect 
agents to process migrants.
    Hundreds of Department of Homeland Security employees are now at 
the border to assist with processing, which diminishes the readiness of 
other components to carry out their missions.
    Worsening this crisis, Democrats in Congress have zeroed out 
funding for additional Border Patrol agents, refusing to provide back-
up for the men and women on the front lines.
    This hearing is well-timed.
    Today we have the opportunity to hear more information about the 
National security aspect of this crisis at the border.
    There have been documented media reports that terrorist groups are 
calling on followers to blend in with migrants to gain entry into the 
United States.
    We know from DHS intel sources that cartels are openly chartering 
buses to drop hundreds of people at a time in remote areas of the 
border. Cartels run large drug loads through while agents are occupied 
by the migrant group.
    Criminal organizations are charging $7,000 per person they smuggle 
to the border. More than 144,000 migrants were encountered by CBP at 
the border in May--that's more than $1 billion last month alone 
potentially flowing to cartels.
    I am encouraged by the DoD presence at the border to bolster CBP 
efforts and help return agents to the line.
    Such a deployment is not a new concept. CBP and the National Guard 
have had a long-standing working relationship on counter-drug task 
forces as well as past operational deployments to the border under the 
Obama administration and the George W. Bush administration.
    National Guard personnel are assisting with logistical and 
administrative support, operating sensor and imaging detection systems, 
providing mobile communications, augmenting border-related intelligence 
efforts, and other functions.
    Separately, in response to the nearly 8,000-person caravan 
approaching the border in November, President Trump sent troops from 
the Army Corp of Engineers, military police, command and control teams 
in aviation, engineering, and medical, and pilots to fly helicopters to 
drop Border Patrol agents in areas where border breaches have occurred.
    The Army Corps is efficiently constructing enhanced physical 
barriers in places along the border where it is needed. DoD personnel 
are also manning CBP sensors and surveillance equipment to alert the 
field agents of illicit activity.
    I want to thank the witnesses before us for being here to speak to 
the situation on the ground and the current threat environment, the 
resource constraints you are operating under, and the long-term 
strategy for the mission. Your service is to be noted. You are deeply 
appreciated.

    Miss Rice. Thank you, Mr. Higgins.
    I now recognize the Chairman of the full committee, Mr. 
Thompson, for an opening statement.
    Mr. Thompson. Thank you, Chairwoman Rice and Ranking Member 
Higgins for holding today's hearing.
    Using DoD resources for border security purposes is not 
new. But I support Congressional oversight of the evolving use 
of these resources by the Trump administration for what appears 
to be an immigration-based agenda.
    I don't think it is any secret that I disagree with many of 
the Trump administration's policies affecting the border. Some 
of these policies directly contradict shared goals of 
addressing the on-going humanitarian crisis on the Southern 
Border.
    For example, last summer the administration moved to 
drastically limit, or meter, the number of asylum seekers 
processed through land ports of entry along the Southern Border 
at the same time DHS Secretary asserted that on-going--that 
going through ports was the only legal pathway to claim asylum.
    Then-Secretary Nielsen and the Department called this 
effort cueing, or cue management. I call metering a violation 
of the U.S. asylum law. Our laws do not place a limit on the 
number of people who can apply for asylum.
    A DHS request for assistance to the DoD from December 2018 
confirms that DHS was seeking to deter people by stating that 
the successful deterrent at the ports of entry has resulted in 
attempted entry between the ports of entry. This is stated as a 
reason why DHS would need DoD support on our Southern Border. 
This begs the following question: Why has the Trump 
administration actively aggravated the challenges on our 
Southern Border? Are military resources true and necessary to 
handle these challenges? I specifically would like to hear from 
our DHS witness on this matter.
    In early March of this year yes, then-commissioner 
McAleenan stated that the Border Patrol is on track to 
apprehend more than a million people this year. This is not a 
new feat as Border Patrol has accomplished this 19 times over 
the last 40 years with less agents, technology, and other tools 
that what Congress has provided over the past decade. However, 
the committee acknowledges that the demographics of people 
presenting at the border, namely families and unaccompanied 
children, present a unique and difficult set of challenges for 
the Border Patrol.
    We need to reach a mutually-agreeable solution to these 
immediate challenges in short order to truly begin addressing 
the crisis. But despite seeing this growing trend over the past 
5 years, the only solutions the Trump administration continue 
to implement are ones that prevent people from reaching the 
United States instead of solutions to manage the reality at 
hand. The most wasteful of all, the President's continued 
obsession with building a big beautiful border wall.
    The President has resorted to testing the bounds of his 
authority by diverting money from the Department of Defense in 
order to build this wall faster as he phrased it in February of 
this year. His effort to claim a National emergency and use 
previously-appropriated defense funds to build the wall have 
encountered multiple lawsuits. These machinations continue at 
the same time DoD's manpower and other resources are being 
deployed to the U.S.-Mexican border.
    I am eager to hear from today's witnesses about the work 
and coordinated efforts being undertaken by the National Guard 
and DoD with DHS at the border. I would also like to learn more 
about the cost both literally and figuratively of having an 
extended presence of military personnel in our border 
communities. What we discuss today will help the committee 
address the issues at the border in a productive manner. I 
thank our witnesses for informing our efforts in this by 
joining us today.
    I yield back, Madam Chair.
    [The statement of Chairman Thompson follows:]

                Statement of Chairman Bennie G. Thompson

                             June 20, 2019

    Using DoD resources for border security purposes is not 
new, but I support Congressional oversight of the evolving use 
of these resources by the Trump administration for what appears 
to bean immigration-based agenda. I don't think it's any secret 
that I disagree with many of the Trump administration's 
policies affecting the border. Some of these policies directly 
contradict the shared goal of addressing the on-going 
humanitarian crisis on the Southern Border. For example, last 
summer the administration moved to drastically limit or meter 
the number of asylum seekers processed through land ports of 
entry along the Southern Border at the same time the DHS 
Secretary asserted that going through ports was the only legal 
pathway to claim asylum.
    Then-Secretary Nielsen and the Department call this effort 
``queuing'' or ``queue management.'' I call metering a 
violation of U.S. asylum law; our laws do not place a limit on 
the number of people who can apply for asylum. A DHS Request 
for Assistance to the DoD from December 2018 confirms that DHS 
was seeking to deter people by stating that: ``The successful 
deterrence at the POEs has resulted in attempted entry between 
the POEs.'' This is stated as a reason why DHS would need DoD's 
support on our Southern Border.
    This begs the following questions--why has the Trump 
administration actively aggravated the challenges on our 
Southern Border? Are military resources truly necessary to 
handle these challenges? I specifically would like to hear from 
our DHS witness on that matter. In early March of this year, 
then-Commissioner McAleenan stated that the Border Patrol is on 
track to apprehend more than a million people this year. This 
is not a new feat, as Border Patrol has accomplished this 19 
times over the last 40 years and with less agents, technology, 
and other tools than what Congress has provided over the past 
decade.
    However, the committee acknowledges that the demographics 
of people presenting at our border--namely families and 
unaccompanied children--presents a unique and difficult set of 
challenges for the Border Patrol. We need to reach a mutually-
agreeable solution to these immediate challenges in short order 
to truly begin addressing the crisis. But despite seeing this 
growing trend over the past 5 years, the only solutions the 
Trump administration continues to implement are ones that 
prevent people from reaching the United States instead of 
solutions to manage the reality at hand.
    The most wasteful of all is the President's continued 
obsession with building a ``big, beautiful'' border wall. The 
President has resorted to testing the bounds of his authority 
by diverting money from the Department of Defense in order to 
build his wall ``faster,'' as he phrased it in February of this 
year. His efforts to claim a National emergency and use 
previously-appropriated defense funds to build the wall have 
encountered multiple lawsuits. These machinations continue at 
the same time DoD manpower and other resources are being 
deployed to the U.S.-Mexico border.
    I am eager to hear from today's witnesses about the work 
and coordinated efforts being undertaken by the National Guard 
and DoD with DHS at the border. I would also like to learn more 
about the costs--both literally and figuratively--of having an 
extended presence of military personnel in our border 
communities.

    Miss Rice. Thank you, Mr. Chairman.
    Other Members of the committee are reminded that, under the 
committee rules, opening statements may be submitted for the 
record.
    Without objection, Members not sitting on the subcommittee 
will be permitted to participate in today's hearing.
    I welcome our panel of witnesses. Our first witness, Chief 
Carla Provost, leads the U.S. Border Patrol. Chief Provost 
began her career with the U.S. Border Patrol in the Tuscon 
sector. Since then she has served in a number of positions in 
the Yuma, El Paso, and el Centro sectors until becoming deputy 
chief of the U.S. Border Patrol in 2016. Prior to joining the 
U.S. Border Patrol, chief provost served as a police officer in 
Manhattan, Kansas.
    Our second witness is Mr. Robert Salesses, the deputy 
assistant secretary of defense for Homeland Defense Integration 
and Defense Support of Civil Authorities. In this position, he 
is responsible for the development of National homeland defense 
and security policy and oversees DoD's response to National 
emergency operations in support of civilian entities.
    Mr. Salesses has a long history of service with the Federal 
Government including time spent as a deputy special assistant 
for the Homeland Security task force. Mr. Salesses is also a 
retired Marine Corps officer.
    I now recognize the gentlelady from Arizona, Mrs. Lesko, to 
recognize today's Minority witness.
    Mrs. Lesko. Thank you very much, Madam Chairman.
    I am proud to welcome Major General Michael T. McGuire, the 
adjutant general for the great State of Arizona, from where I 
am from, who concurrently served as the director of the Arizona 
Department of Emergency and Military Affairs. He is responsible 
for managing the day-to-day activities of Arizona's Army and 
Air National Guard joint programs in the division of emergency 
management. He leads an 8,000-member department of which 2,400 
are full-time Federal military and civilian personnel and 600 
are full-time State employees.
    General McGuire received his commission from the United 
States Air Force Academy in 1987. He attended undergraduate 
pilot training at Shepherd Air Force Base, Texas, followed by 
several operational combat and training assignments in the F-16 
Fighting Falcon. He joined the Arizona Air National Guard's 
162d Fighter Wing, Tuscon International Airport, in 2001 as an 
F-16 instructor pilot.
    In 2010, commanded the 214th reconnaissance group at Davis-
Monthan Air Force Base, Arizona, where he flew the MQ-1B 
Predator and led the unit in combat operations in support of 
overseas contingencies. Prior to assuming his current duties, 
he served as commander, 162d Fighter Wing. General McGuire is a 
fighter weapon school graduate and a command pilot with more 
than 4,000 flying hours and 250 combat and combat support 
flying hours.
    I am proud to welcome our very own Arizonan who has served 
our country well and continues to serve our country and State.
    Thank you, sir, for being here.
    Miss Rice. Thank you, Mrs. Lesko.
    Without objection, the witnesses' full statements will be 
inserted in the record. I now ask each witness to summarize his 
or her statement for 5 minutes. We will begin with Chief 
Provost.

  STATEMENT OF CHIEF CARLA PROVOST, U.S. BORDER PATROL, U.S. 
 CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY

    Chief Provost. Thank you. Good morning, Chairwoman Rice, 
Chairman Thompson, and Ranking Member Higgins, as well as the 
distinguished Members of the subcommittee. I couldn't be more 
proud to represent the men and women of the U.S. Border Patrol 
and to speak to the critical support our DoD partners are 
providing us each and every day.
    In the Border Patrol, we know what it takes to secure the 
border, what we call operational control, also known as op con. 
Op con requires the right combination of technology, physical 
barriers, and manpower to identify, impede, and respond to 
illegal cross-border activity.
    As you are all aware, I have been forced to divert 40 to 60 
percent of Border Patrol's manpower away from the border as we 
process and care for nearly 435,000 families and children that 
have flooded across our Southern Border so far this year. As 
the chief of the Border Patrol, I know that every agent that I 
am forced to pull away from border security directly harms our 
ability to achieve op con.
    People often ask why we need to secure the border when so 
many families are turning themselves in. But think about the 
number of agents who must abandon their post to assist when a 
group of over 1,000 illegal aliens walk into the United States 
at 4 in the morning. This happened just last month, and it set 
a record for the largest group in the 95-year history of the 
Border Patrol.
    With 193 of these large groups so far this year, our 
operations are now being overwhelmed on a daily basis. At the 
same time, our border security mission has not gone away. Many 
illegal aliens and smugglers are trying to evade law 
enforcement. We have apprehended more than 224,000 single adult 
aliens on the Southern Border, a 28 percent increase compared 
to last year. We have arrested more than 6,800 criminal aliens 
and gang members. We are seeing more high-volume drug seizures, 
a sign that smugglers are becoming more brazen.
    In just one incident at the Rio Grande Valley, we seized 
more than 700 pounds of cocaine crossing the river. Just last 
week, agents in RGV again seized a large load of 
methamphetamine with an estimated value of over $5.6 million. 
This is why the support we receive from DoD is invaluable. With 
fewer agents available to maintain situational awareness alone 
the border, DoD camera operators have contributed to more than 
15,600 apprehensions and the seizure of more than 38 pounds of 
marijuana and $2,300 in currency.
    On the ground and in the air, the situational awareness 
helps keep the limited number of agents we have on the border 
safe and aware of illegal activity. So far this year we have 
observed more than 100,000 people who have successfully evaded 
arrest, a 5-year high in what we call got-aways. These are just 
the ones that we know about. Even with DoD's support, I fear 
that we are missing far many others.
    Not only does this show the value of situational awareness 
but that it is only effective when combined with a timely law 
enforcement response. Additionally, the National Guard, through 
Operation Guardian Support, is assisting our operations in a 
range of areas including air support, radio communications, 
maintenance, and brush clearing. In fiscal year 2019 to date, 
the National Guard has provided more than 5,800 air hours and 
contributed to more than 94,000 apprehensions and the seizure 
of more than 24,000 pounds of marijuana, 231 pounds of 
methamphetamine, and $7,000 in currency. Like the hundreds of 
agents that I have redeployed to the Southern Border from other 
locations, I know the sacrifice our DoD brothers and sisters 
are making to support us.
    To all the men and women out there on the border every day, 
I cannot thank you enough for the sacrifices you are making. 
Many of you are away from your families, working long hours in 
harsh border environments and facing overwhelming challenges. I 
wish I could tell you when our operations will return to 
normal. But as long as we face this crisis, I will continue to 
ask for DoD support.
    Additionally, I will continue to ask Congress to address 
the gaps in our immigration framework that encouraged this 
flow. Smugglers falsely advertise a safe journey to the border 
misleading families that anyone who arrives with a child will 
not be deported under current U.S. policies.
    While smugglers primarily target the northern triangle, 
family units from 52 countries have illegally crossed the 
Southern Border so far this year. In just 2 weeks, more than 
740 individuals from African Nations, primarily family units, 
have been apprehended in Del Rio sector alone compared to only 
108 who cross the Southern Border in the first 8 months of the 
fiscal year. Families from countries like Brazil, Nicaragua, 
Ecuador, Cuba, Peru, Romania, and Vietnam are taking the same 
pathways through Central America and Mexico to take advantage 
the gaps in our system.
    We are now entering the hot summer months increasing the 
risk to migrants and placing more demands on my agents. If 
Congress continues to ignore the needed changes in law, I don't 
know when I will be able to refocus my agents toward our border 
security mission or tell DoD their assistance is no longer 
needed.
    What I do know is, without a doubt, DoD support has made a 
difference in Border Patrol's ability to carry out our mission.
    Thank you, and I look forward to your questions.
    [The prepared statement of Chief Provost follows:]
                 Prepared Statement of Carla L. Provost
                             June 20, 2019
    Chairwoman Rice, Ranking Member Higgins, and Members of the 
subcommittee, thank you for the opportunity to testify before you 
today.
    Our Nation is experiencing an unprecedented border security and 
humanitarian crisis along our Southwest Border. We have surging levels 
of individuals entering without proper documentation. This fiscal year 
through May, Border Patrol has apprehended over 593,000 illegal aliens 
between ports of entry along the Southwest Border. CBP's Office of 
Field Operations encountered an additional 80,000+ inadmissible 
individuals at ports of entry along the Southwest Border. This year-to-
date level exceeds the full-year apprehensions of any fiscal year in 
the last decade. We have also set an unfortunate new record of the 
largest migrant group ever apprehended--more than a thousand migrants 
illegally crossing the border together in El Paso, Texas, in late May.
    The demographic shift toward more vulnerable populations, combined 
with overwhelming numbers, has caused 40 to 60 percent of Border Patrol 
agents to be pulled away from our border security mission to provide 
humanitarian support--that's 40 to 60 percent of our front-line 
workforce that is not available to stop drugs, gang members, and 
dangerous criminals from entering our country. In addition to the 
nearly 600,000 apprehensions to date, Border Patrol has documented more 
than 100,000 individuals who successfully crossed the border illegally 
and disappeared into border communities before agents could respond. 
This is the highest level of observed ``got aways'' since fiscal year 
2014. This high level of ``got aways'' is a direct result of agents 
being reassigned away from the front line to provide humanitarian 
support to the unprecedented numbers of individuals and families in 
custody. In fiscal year 2019 to date, UAC and family units represent 66 
percent of all Southwest Border inadmissible individuals and 
apprehensions.
                   cbp and the department of defense
    At CBP, we have a long history of working closely with our partners 
at the U.S. Department of Defense (DoD), united by the common purpose 
of keeping the United States and its people safe and secure.
    DoD's U.S. Northern Command, U.S. Southern Command, and U.S. Indo-
Pacific Command have long supported our border security mission. 
National Guard personnel have provided support--such as counternarcotic 
support operations--in areas including Tucson, Yuma, and West Texas for 
decades. Previous administrations also directed DoD to temporarily 
authorize the use of National Guard personnel to support CBP. National 
Guard personnel have assisted CBP by providing aviation, operational, 
logistical, engineering, and administrative support in Operation Jump 
Start from 2006 to 2008, and again in Operation Phalanx from 2010 to 
2016.
    Specifically, during Operation Jump Start, National Guard personnel 
provided interim surveillance and reconnaissance (air, ground, 
satellite imagery), linguists; air and ground transportation, 
engineering (fences and roads), and logistics (medical, temporary 
shelters, and food service) support to CBP while CBP recruited, 
trained, and deployed additional agents. This interim support increased 
situational awareness that facilitated more than 173,000 CBP arrests, 
the rescue of 100 people, and the seizure of more than 300,000 pounds 
of drugs. Most importantly, Operation Jump Start contributed to a 
significant decrease in illicit trafficking activity in many areas of 
the border.
               dod support to the border security crisis
    On April 4, 2018, President Trump directed DoD to support the 
Department of Homeland Security in securing the Southern Border. 
Multiple requests for assistance have further expanded DoD support 
efforts to address the continuously evolving border security crisis. 
The on-going deployment of DoD and National Guard personnel, equipment, 
and assets provide critical support to our law enforcement agents.
    In Operation Guardian Support, National Guard personnel are 
providing air support in the form of light and medium-lift helicopters; 
infrastructure support, such as road maintenance and vegetation 
clearing; operational support, such as fleet maintenance and repair and 
law enforcement communications assistance; and surveillance support as 
surveillance camera operators.
    To be clear, National Guard personnel supporting Operation Guardian 
Support do not conduct law enforcement activities and do not have 
direct contact with migrants. However, they are providing tremendous 
assistance to CBP. By taking on these important supporting tasks, such 
as infrastructure repair or surveillance assistance, these National 
Guard personnel enable Border Patrol agents to focus on law enforcement 
activities at the border.
    In 2018, in response to a Central American caravan of unprecedented 
size, CBP requested additional DoD support during Operation Secure 
Line. DoD personnel provided planning assistance; engineering support, 
such as temporary barriers, barricades, and fencing; fixed-wing and 
rotary-wing aviation support to transport CBP personnel; medical teams 
to triage, treat, and prepare for commercial transport of patients; 
command-and-control facilities for CBP personnel; temporary housing for 
CBP personnel; and personal protective equipment for CBP personnel.
    Additionally, DoD personnel are augmenting border security 
situational awareness utilizing CBP Mobile Surveillance Capability 
(MSC). MSC systems provide long-range mobile surveillance and consist 
of a suite of radar and camera sensors mounted on vehicles. Such 
vehicles are deployed to operate the system, which automatically 
detects and tracks items of interest and provides the operator with 
data and video of the observed subject. Agents often work alone in 
rugged, remote areas. The surveillance DoD provides helps us keep the 
agents on the ground safe and aware of illegal activity happening along 
the border.
    DoD and CBP have also expanded our partnership of over a decade to 
construct new border barriers in key locations across the Southwest 
Border. Investments made using DHS-appropriated resources and Treasury 
Forfeiture Funds are being executed by the U.S. Army Corps of 
Engineers. Forty-four of the approximately 205 miles DHS has funding on 
hand to support are already complete--with many more miles under way. 
DoD is also assisting DHS by executing approximately 129 additional 
miles with counterdrug funding, adding barriers, roads, and lights that 
will block known drug smuggling corridors. A portion of the DoD-funded 
barrier construction is currently on hold due to a court injunction 
from the United States District Court--Northern District of California. 
These barriers provide a tangible mechanism to deter, stop, and/or 
delay those illegal entrants that would seek to evade the Border 
Patrol. At no time in our history has this been more critical than 
today, when a significant portion of our front-line workforce is 
focused on addressing the humanitarian crisis at our borders.
                          making a difference
    Since Operation Guardian Support began in 2018, CBP has carried out 
thousands of apprehensions, seized thousands of pounds of dangerous 
drugs, and performed multiple rescues. In fiscal year 2019 to date, DoD 
assistance has contributed to more than 87,000 deportable alien 
arrests, and the seizure of more than 24,000 pounds of marijuana, 228 
pounds of methamphetamine, and more than $7,000 in currency. 
Additionally, DoD's MSC surveillance support missions have contributed 
to more than 13,000 apprehensions and the seizure of more than 3,700 
pounds of marijuana and $2,000 in currency. Their support has made a 
difference in CBP's ability to carry out our mission.
    For example, in January of this year, a Lordsburg Border Patrol 
agent operating infrared surveillance equipment saw 4 individuals 
walking northbound near a smelter on Highway 1113. The individuals were 
wearing camouflage clothing and custom-made footwear designed to mask 
their tracks. Border Patrol All-Terrain Vehicle (ATV) Units and a 
National Guard helicopter responded to the area, and the helicopter 
crew--equipped with night vision equipment--was able to locate the 4 
individuals. The helicopter crew guided the ATV Units to the hidden 
individuals, who were arrested. The National Guard crew then alerted 
and guided the agents to several large rectangular burlap sacks in the 
area, which tested positive for marijuana. In total, the bags of drugs 
weighed 135.6 pounds, with an estimated street value of $108,640.
    In another example, in June 2018 Border Patrol agents from the 
McAllen Station in Texas received information from Mexico's emergency 
call center regarding a lost Mexican national in distress. Border 
Patrol agents operating an aerostat camera located the lost migrant, 
who was suffering from dehydration. The Border Patrol agents provided 
coordinates to a nearby Texas Army National Guard helicopter pilot who 
was supporting Operation Guardian Support. Minutes later, the National 
Guard pilot located the subject and quickly guided Border Patrol agents 
to the location. There, a Border Patrol agent who is a certified 
Emergency Medical Technician treated the lost Mexican national for 
dehydration.
    In addition, last year in the Tucson Sector, the Arizona National 
Guard supporting the Ajo Border Patrol Station provided vehicle 
mechanics to help complete an inspection of the station's fleet. During 
the inspection, the National Guard mechanics identified and repaired 
more than 80 vehicles with suspension issues that could have led to 
significant safety hazards for Border Patrol agents patrolling in 
isolated areas. While this could have taken weeks to resolve, with the 
National Guard's help, Border Patrol was able to complete the 
inspections and repairs within 2 days.
                               conclusion
    Border security is National security--there is no difference--and 
the crisis on our Southwest Border puts our National security at risk. 
I have repeatedly asked Congress to act, to address the outdated legal 
framework and broken immigration system that has caused dangerous mass 
migration with no end in sight. Without legislative solutions, CBP 
expects the need for continued DoD support to help address the 
diversion of resources away from the border security mission to the 
current humanitarian crisis.
    Thank you for the opportunity to appear before you today. I look 
forward to your questions.

    Miss Rice. Thank you, Chief Provost.
    I now recognize Mr. Salesses to summarize his statement for 
5 minutes.

STATEMENT OF ROBERT G. SALESSES, DEPUTY ASSISTANT SECRETARY OF 
 DEFENSE, HOMELAND DEFENSE INTEGRATION AND DEFENSE SUPPORT OF 
            CIVIL AUTHORITIES, DEPARTMENT OF DEFENSE

    Mr. Salesses. Good morning, Chairwoman Rice, Chairman 
Thompson, Ranking Member Higgins, distinguished Members of the 
subcommittee. Thank you for the opportunity to testify before 
you today on the Department of Defense's support to the 
Department of Homeland Security in securing the Southern Border 
of the United States.
    As already pointed out, DoD has a long history of 
supporting border security efforts. Since the early 1990's, 
Active Duty National Guard personnel have supported Federal, 
State, and countered drug activities with detection and 
monitoring, transportation, communications, and engineering 
support. More recently, DoD has been called upon to support 
Customs and Border Protection and the Department of Health and 
Human Services to include, in 2006 to 2008, Operation Jump 
Start, nearly 6,000 National Guard personnel deployed to the 
Southwest Border.
    From 2010 to 2017, CBP's Operation Phalanx, National Guard 
personnel again deployed to the Southwest Border. Between 2012 
and 2017, DoD provided shelter for approximately 16,000 
unaccompanied children for HHS on DoD installations. Since 
April 2018, DoD support to DHS has evolved as the border crisis 
continues.
    On April 4, the President directed that DoD support DHS in 
securing the Southern Border. Responding to the evolving 
challenges at the border and a marked rise in illegal migration 
of approximately 36,000 migrants per month, DoD surged military 
support to CBP in all 9 Border Patrol sectors in all 4 
Southwest Border States in support of CBP's Operation Guardian 
Support. National Guard personnel have been supporting CBP with 
aviation, engineering, communications, vehicle maintenance 
planning, and other non-law enforcement missions.
    This support provides badges back to the border by freeing 
Border Patrol agents to execute their law enforcement duties 
enhancing situational awareness along the Southern Border of 
the United States. As of today, there is 1,900 National Guard 
personnel supporting CBP Operation Guardian support.
    In October 2018, a series of large migrant caravans, some 
deploying violent and dangerous tactics toward Guatemalan and 
Mexican authorities approached the U.S. Southern Border ports 
of entry. At the request of CBP in response to the magnitude of 
these caravans coupled with the unprecedented and simultaneous 
influx of 60,000 illegal migrants per month, DoD surged support 
to CBP's Operation Secure Line with active-duty personnel to 
enhance security at U.S. ports of entry.
    Military engineers harden ports of entry by placing over 
200 miles of concertina wire, barrier obstacles in and around 
33 ports of entry in California, Arizona, and Texas, provided 
rotary wing aviation support to expedite moment of CBP agent 
between ports of entry and provided military police for force 
protection of CBP agents performing their Federal functions.
    In February 2019, another caravan of approximately 2,000 
migrants secured transportation in Mexico arriving at the port 
of entry in Eagle Pass, Texas, within days not weeks. DoD surge 
support to Eagle Pass, Texas, to assist CBP.
    Following this incident, DHS requested DoD make available a 
contingency for a crisis response force including engineers, 
medical force protection to support and assist at the ports of 
entry along the Southwest Border. As of today, there's 2,600 
active-duty military personnel, are supporting CBP's operation 
Secure Line.
    In February 2019, facing an influx now of over 76,000 
migrants and multiple caravans per month, DoD expanded its 
support from hardening ports of entry to enhancing the security 
between the ports of entry principally providing additional 
detection and monitoring capabilities. DoD was asked to provide 
1,200 military personnel to man 146 CBP mobile surveillance 
camera system trucks between the ports of entry across the 9 
sectors for Southwest Border States.
    In May 2019, CBP's capacity to process incoming migrants 
was exceeded by the approximate 100,000 migrants entering the 
United States per month. To deal with the migrant processing 
challenge at the Border Patrol stations, DoD is assisting CBP 
by providing military drivers to transparent migrants in CBP 
vehicles and military personnel to distribute meals and conduct 
welfare checks at Border Patrol stations.
    DHS has also requested DoD assistance in establishing 
temporary detention facilities to house 7,500 single adult 
migrants at 6 CBP-designated locations in Texas and Arizona. 
DoD is being asked to provide tents and some support services 
at these locations.
    The Department of Health and Human Services has also 
submitted a request for facilities or land to accommodate up to 
5,000 unaccompanied children. On the 10th of June, the acting 
Secretary of Defense approved the use of facilities at Fort 
Sill, Oklahoma, or HHS to shelter approximately 1,400 children.
    Since early 2000, the U.S. Army Corps of Engineers has 
worked regularly with DHS and CBP on various border barrier 
projects. In February 2019, as a result of the increasing flow 
of illicit drugs across the Southern Border, DHS requested that 
DoD use its authority in Section 284 Title 10 U.S. code to 
block drug smuggling corridors.
    The Acting Secretary of Defense approved this request 
specifically by directing the transfer of $2.5 billion into the 
Defense Drug Interdiction and Counter Drug Activities account 
for construction of 129 miles of border barrier fencing which 
will block drug smuggling corridors in California, Arizona, and 
Texas. The Department is also assessing the use of Section 2808 
authorities for military construction in support of the 
President's declaration of National emergency on the Southern 
Border.
    In summary, the Department of Defense continues to adapt 
its support to DHS and CBP as it responds to this evolving 
crisis at the border. I have visited the border on several 
occasions, have witnessed the tremendous efforts of our 
military personnel supporting and working with their DHS and 
CBP counterparts.
    Chairwoman Rice, Ranking Member Higgins, distinguished 
Members of the committee, thank you for your continued support 
of the Department of Defense and the men and women of the U.S. 
Armed Forces. I look forward to your questions.
    [The prepared statement of Mr. Salesses follows:]
                Prepared Statement of Robert G. Salesses
                             June 20, 2019
                              introduction
    Chairwoman Rice, Ranking Member Higgins, distinguished Members of 
the subcommittee: Thank you for the opportunity to testify today on 
Department of Defense (DoD) support to Department of Homeland Security 
(DHS), Department of Health and Human Services (HHS), and Department of 
Justice (DOJ) missions related to the security of the Southern Border 
of the United States.
   the department of defense has a long history of supporting border 
                                security
    Using the substantial authorities Congress has provided, DoD has a 
long history of supporting efforts to secure U.S. borders.
Steady State
    Active-duty and National Guard personnel have supported Federal and 
State counterdrug activities (e.g., detection and monitoring of cross-
border trafficking, aerial reconnaissance, transportation and 
communications support, and construction of fences and roads) beginning 
in the early 1990's. Most recently, U.S. Northern Command's Joint Task 
Force-North executed 53 counterdrug support missions in fiscal year 
2017 and 23 missions in fiscal year 2018. When the Secretary of Defense 
approved the 4 border States' plans for drug interdiction and counter-
drug activities, DoD committed $21 million in funds in fiscal year 2017 
and $53 million in fiscal year 2018.
    When needed, DoD has provided planners to help DHS develop its 
Southern Border and Approaches Campaign (2014) and CBP's Crisis 
Migration Plan (2018).
    DoD has also loaned facilities and special equipment, such as 
aerostats, ground surveillance radars, and ground sensors, to CBP.
Surge Support
  <bullet> Post-9/11 (2002).--1,600 National Guard personnel were 
        detailed to the U.S. Customs Service, the Immigration and 
        Naturalization Service, and the Border Patrol at Northern and 
        Southern Borders.
  <bullet> 2004-2005--Operation WINTER FREEZE.--129 Active-duty and 
        National Guard personnel were deployed to Northern Border to 
        interdict suspected transnational threats.
  <bullet> 2006-2008--Operation JUMP START.--6,000 National Guard 
        personnel were deployed at the Southern Border from 2006-2007 
        and 3,000 National Guard personnel from 2007-2008. National 
        Guard personnel improved infrastructure at the Southern Border 
        by building more than 38 miles of pedestrian fence, 96 miles of 
        vehicle barrier, more than 19 miles of new all-weather road, 
        and repairing more than 700 miles of roads.
  <bullet> 2010-2017--Operation PHALANX (2010-2017).--Up to 1,200 
        National Guard personnel were deployed at the Southern Border 
        from 2010 to 2012 and 200-300 National Guard personnel at the 
        Southern Border from 2013-2017, conducting detection and 
        monitoring, aviation support, aerial reconnaissance, and 
        analytical support missions.
  <bullet> 2012-Present--Housing Support for Unaccompanied Alien 
        Children.--DoD has provided temporary housing support to the 
        Department of Health and Human Services (HHS), on a 
        reimbursable basis, as part of the National response to the 
        surge of unaccompanied alien children (UAC) at the U.S. 
        Southern Border. Since 2012, DoD has provided DoD property for 
        HHS to shelter nearly 16,000 UAC, who receive care, security, 
        transportation, and medical services from HHS. Consistent with 
        section 2815 of the National Defense Authorization Act for 
        fiscal year 2017 (Public Law 114-328), the Secretary of Defense 
        has certified that providing this sheltering support to HHS 
        will not negatively affect military training, operations, 
        readiness, or other military requirements, including National 
        Guard and Reserve readiness. A summary of this support is 
        provided in the following table:

------------------------------------------------------------------------
         DoD Installation                 Duration        Number of UACs
------------------------------------------------------------------------
Lackland, AFB, TX.................  April 4-June 13,                   0
                                     2012.
Lackland, AFB, TX.................  May 18-August 8,               4,357
                                     2014.
NAVBASE Ventura, CA...............  May 18-August 8,               1,540
                                     2014.
Ft. Sill, OK......................  May 18-August 8,               1,861
                                     2014.
Holloman AFB, NM..................  January 25-February              129
                                     27, 2016.
Ft. Bliss, TX.....................  September 6, 2016-             7,259
                                     February 8, 2017.
                                                         ---------------
TOTAL.............................  ....................          15,946
------------------------------------------------------------------------

    DoD's presence and support at the Southern Border increases the 
effectiveness of CBP's border security operations, helps free up Border 
Patrol agents to conduct law enforcement duties, and enhances 
situational awareness to stem the tide of illegal activity along the 
Southern Border of the United States.
    The numbers and types of migrants arriving at the Southern Border 
of the United States has exceeded the capacity of CBP, prompting the 
need for additional DoD support.
               the president directed dod to support dhs
    Since April 2018, DoD support to DHS has been provided pursuant to 
the President's direction, including his April 4, 2018, Presidential 
memorandum, ``Securing the Southern Border of the United States.'' In 
this memorandum, the President directed DoD to support DHS ``in 
securing the Southern Border and taking other necessary actions to stop 
the flow of deadly drugs and other contraband, gang members and other 
criminals, and illegal aliens into this country.'' The President also 
directed DoD to request use of National Guard personnel to assist in 
fulfilling this mission, including pursuant to Section 502 of Title 32, 
U.S. Code. Finally, the President directed the Secretary of Defense and 
the Secretary of Homeland Security, in coordination with the Attorney 
General, to determine what other resources and actions are necessary to 
protect our Southern Border, including Federal law enforcement and U.S. 
military resources.
                       dod works closely with dhs
    Across the full-range of support that DoD has provided DHS--border 
security support, disaster support, special event security support, and 
support for protection of the President--DoD has worked closely with 
DHS as DHS develops its requests for DoD assistance as deliberately, 
expeditiously, and effectively as possible to meet mission needs.
    DoD carefully considers all requests for assistance, including in 
order to determine whether DoD has the requested capabilities and 
resources and whether providing the requested assistance is consistent 
with applicable law. When a request is approved, DoD works with the 
requesting department or agency to select the right forces and 
resources to meet the requested mission needs. DoD has used the same 
process for every DHS request for assistance related to DHS's border 
security mission.
    Specific DoD support is driven by DHS requirements. DoD, consistent 
with the President's order, statutory authority, and operational 
considerations, helps DHS develop requests that will meet DHS 
requirements while mitigating potential impacts on military readiness, 
to the extent practicable. Consistent with the law and the President's 
order, DoD support is currently being provided on a non-reimbursable 
basis, to the extent legally available. DoD support is also provided 
consistent with Section 275 of Title 10, U.S. Code, and the Posse 
Comitatus Act (Section 1535 of Title 18, U.S. Code), which do not 
permit direct participation by military personnel in a search, seizure, 
arrest, or other similar activity.
                              dod support
April 2018 to September 2019--Augmentation (Badges Back to the Border)
  <bullet> In support of CBP Operation Guardian Support, DoD has 
        authorized National Guard personnel to support CBP in a duty 
        status under Section 502 of Title 32, U.S. Code, with the 
        consent of, and under the command and control of, their 
        Governors.
  <bullet> Types of support: Aviation; communications; fleet 
        maintenance; intelligence analysis; planning; and surveillance.
  <bullet> At its peak, on November 26, 2018, 2,295 National Guard 
        personnel supported CBP Operation Guardian Support (369 in 
        California; 603 in Arizona; 119 in New Mexico; and 1,204 in 
        Texas). As of June 5, 2019, 1,776 National Guard personnel were 
        supporting CBP Operation Guardian Support (137 in California; 
        550 in Arizona; 18 in New Mexico; and 1,227 in Texas).
June to December 2018--Attorney Support for the Department of Justice
  <bullet> DoD detailed 21 attorneys with criminal trial experience to 
        the Department of Justice (DOJ) to serve as Special Assistant 
        United States Attorneys (SAUSAs).
  <bullet> This detail of DoD personnel was executed pursuant to the 
        Economy Act and was on a fully reimbursable basis.
October 2018 to January 2019--Enhanced Security of Ports of Entry
  <bullet> Active-duty military personnel support to CBP Operation 
        Secure Line. Active-duty military personnel were selected 
        because the Secretary of Defense determined that such personnel 
        were the best-suited and most readily available forces from the 
        Total Force to provide the assistance requested by DHS.
  <bullet> Types of support:
    <bullet> Military planning teams to coordinate operations, 
            engineering, medical, and logistics support.
    <bullet> Medium-lift rotary-wing aviation support, on-call 24 hours 
            a day, to supplement the movement of CBP quick-reaction 
            force tactical personnel in and around locations determined 
            by CBP day or night.
    <bullet> Strategic lift aviation support, available with 12-hour 
            notification, to move up to 400 CBP personnel and equipment 
            to a location determined by CBP.
    <bullet> Engineering capability support that can provide temporary 
            vehicle barriers and pedestrian-style fencing at and around 
            a port of entry (POE), including but not limited to: 
            Continuous anti-personnel intrusion fencing; one-way 
            retractable vehicle anti-intrusion barricades; configurable 
            pedestrian fencing; and fixed vehicle barricades. Based on 
            an additional DHS request, concertina wire emplacement 
            continued through March 2019. Ultimately, DoD personnel 
            hardened 33 POEs and emplaced 200 miles of concertina wire.
    <bullet> Deployable medical units to triage and treat, up to 1,000 
            personnel every 24 hours. Such units were prepared to 
            stabilize and prepare injured personnel for commercial 
            transport to civilian medical facilities, as necessary.
    <bullet> Temporary housing for up to 2,345 CBP personnel.
    <bullet> Loan of personnel protective equipment (e.g., helmets with 
            face shields, hand-held shields, and shin guards) for 500 
            CBP personnel.
  <bullet> At its peak, on November 7, 2018, 5,622 active-duty military 
        personnel supported CBP Operation Secure Line.
November 2018 through March 2019--Force Protection for CBP
  <bullet> On November 20, 2018, the President authorized DoD to use 
        military personnel to protect CBP personnel performing their 
        Federal functions within property controlled by CBP at or 
        adjacent to one or more designated POEs.
  <bullet> Although DoD military personnel were prepared to protect CBP 
        personnel, they were not required to do so.
February 2019--Crisis Support
  <bullet> The Acting Secretary of Defense approved a DHS request for 
        support at CBP-designated POEs in the Del Rio and Laredo 
        Sectors in Texas.
  <bullet> Types of support:
    <bullet> Military protection of CBP personnel performing their 
            Federal functions on property owned by CBP at or adjacent 
            to one or more designated land POEs where caravan members 
            presented a risk of disrupting or otherwise interfering 
            with CBP's ability to carry out its Federal functions.
    <bullet> Immediate life-saving medical care for CBP personnel and 
            migrants pending expeditious movement to civilian medical 
            facilities.
    <bullet> Placement of temporary vehicle barriers and pedestrian-
            style fencing and emplacement of concertina wire at and 
            around CBP-designated POEs.
    <bullet> Medium-lift rotary-wing aircraft and support personnel for 
            tactical movement of CBP personnel (24-hour on-call ability 
            to employ 2 simultaneous lifts of 6 to 8 personnel and 
            associated equipment).
March to September 2019--Crisis Response Force
  <bullet> The Acting Secretary of Defense approved a DHS request for 
        crisis response support.
  <bullet> Types of support:
    <bullet> On a contingency basis (i.e., available when needed), a 
            medical response capability to treat up to 100 persons 
            during a violent incident. DoD medical personnel would 
            provide immediate life-saving care at the point-of-injury.
    <bullet> On a contingency basis, a minimum of 2 Military Police 
            platoons, and not to exceed one Military Police company, 
            capable of responding to multiple locations designated by 
            CBP to provide force protection of CBP personnel performing 
            their Federal functions on property owned by CBP at or 
            adjacent to POEs.
    <bullet> One Military Police platoon to conduct, at a minimum, 
            monthly exercises and training with CBP personnel.
    <bullet> Engineering support to: (a) Emplace temporary vehicle 
            barriers, temporary fencing, and concertina wire at and 
            adjacent to CBP-designated POEs; and (b) harden land POEs 
            at the Southern Border in Texas.
    <bullet> Medium-lift, rotary-wing aircraft and support personnel 
            for the tactical movement of 6 to 8 CBP personnel at and 
            around POE locations designated by CBP.
    <bullet> Extension of DoD's loan of personnel protection equipment.
January through September 2019--Detection and Monitoring
  <bullet> The Acting Secretary of Defense approved a DHS request for 
        DoD detection and monitoring support.
  <bullet> Type of support: mobile surveillance camera operators in 146 
        vehicles operating in Arizona, California, New Mexico, and 
        Texas in all 9 Border Patrol Sectors. In May 2019, the Acting 
        Secretary of Defense approved a request to increase the number 
        of mobile surveillance camera vehicles to 155.
March through Present 2019--Blocking Drug-Smuggling Corridors
  <bullet> In accordance with Section 284(b)(7) of Title 10, U.S. Code, 
        the Secretary of Defense may, in support of the counter-
        narcotics activities of Federal civilian law enforcement 
        agencies, construct roads and fences, and install lighting, to 
        block drug-smuggling corridors across the international 
        boundaries of the United States.
  <bullet> In March 2019, the Acting Secretary of Defense approved a 
        DHS request to use this authority to block drug-smuggling 
        corridors in the Yuma Sector in Arizona and the El Paso Sector 
        in New Mexico, specifically by constructing 51 miles of 
        fencing, constructing and improving roads, and installing 
        lighting.
  <bullet> In May 2019, the United States District Court for the 
        Northern District of California issued a preliminary injunction 
        prohibiting the use of the $1 billion transferred pursuant to 
        Section 8005 of the Department of Defense Appropriations Act, 
        2019, into the Defense Drug Interdiction and Counter-Drug 
        Activities, Defense, account for construction under Section 284 
        of Title 10, U.S. Code (i.e., construction in the Yuma and El 
        Paso CBP Sectors).
  <bullet> In May 2019, the Acting Secretary of Defense authorized 
        construction of an additional 78 miles of fencing pursuant to 
        Section 284(b)(7)--this time to block drug-smuggling corridors 
        in the El Centro Sector in California and the Tucson Sector in 
        Arizona.
  <bullet> In total, the Acting Secretary of Defense directed the 
        transfer of $2.5 billion into the Drug Interdiction and 
        Counter-Drug Activities, Defense account to block drug-
        smuggling corridors designated by DHS along 129 miles and in 4 
        Sectors along the U.S. Southern Border (i.e., El Centro in 
        California; Yuma and Tucson in Arizona; and El Paso in New 
        Mexico).
June through September 2019--Migrant Processing Support
  <bullet> The Acting Secretary of Defense approved a DHS request for 
        support with migrant processing.
  <bullet> Types of support:
    <bullet> 160 licensed DoD military drivers to operate secure CBP 
            vehicles to transport migrants from remote locations, POEs, 
            and Border Patrol stations.
    <bullet> 100 DoD military personnel to heat and distribute meals 
            and conduct welfare checks.
May through September 2019--Housing
  <bullet> Unaccompanied Alien Children
    <bullet> DoD has agreed to support HHS by being prepared to provide 
            capacity to temporarily house up to 5,000 UAC on DoD 
            installations.
    <bullet> Consistent with Section 2815 of the National Defense 
            Authorization Act for fiscal year 2017 (Public Law 114-
            328), the Secretary of Defense is required to certify that 
            providing this sheltering support to HHS would not 
            negatively affect military training, operations, readiness, 
            or other military requirements, including National Guard 
            and Reserve readiness.
    <bullet> DoD is currently providing HHS with capacity to house 
            approximately 1,400 UAC at Fort Sill, Oklahoma, consistent 
            with Section 2815.
    <bullet> This support is provided on a reimbursable basis.
  <bullet> Adult Migrants
    <bullet> The Acting Secretary of Defense approved a DHS request for 
            support to shelter up to a total of 7,500 single migrant 
            adults in CBP custody at 6 CBP-designated locations.
              the president declared a national emergency
    On February 15, 2019, the President declared that ``situation at 
the Southern Border presents a border security and humanitarian crisis 
that threatens core National security interests and constitutes a 
National emergency.'' In support of this National emergency, the 
President invoked 2 statutory authorities:
  <bullet> Section 12302 of Title 10, U.S. Code, which authorizes the 
        Secretary of Defense to order to active duty up to 1,000,000 
        members of the Ready Reserve for up to 24 months.
  <bullet> Section 2808 of Title 10, U.S. Code, which authorizes the 
        Secretary of Defense to use unobligated military construction 
        funds to undertake military construction projects, and to 
        authorize the Secretaries of the Military Departments to 
        undertake military construction projects, not otherwise 
        authorized by law that are necessary to support the use of the 
        armed forces in connection with the National emergency.
                               conclusion
    Chairwoman Rice, Ranking Member Higgins, distinguished Members of 
the committee: This on-going, temporary DoD support is a continuation 
of DoD's long history of supporting DHS and CBP in their mission to 
secure U.S. borders. Thank you for your continued support to DoD and 
the men and women of the U.S. Armed Forces.

    Miss Rice. Thank you very much, Mr. Salesses.
    I now recognize Major General McGuire to summarize his 
statement for 5 minutes.

   STATEMENT OF MAJOR GENERAL MICHAEL T. MC GUIRE, ADJUTANT 
GENERAL FOR ARIZONA, DIRECTOR, ARIZONA DEPARTMENT OF EMERGENCY 
                      AND MILITARY AFFAIRS

    General McGuire. Good morning, Chairwoman Rice, Chairman 
Thompson, Ranking Member Higgins, thanks to all the 
distinguished Members of the committee for allowing me to come 
here today and testify before you on behalf of the 7,800 
citizens, soldiers, and airmen of the Arizona National Guard.
    As you know, the National Guard of today dates its heraldry 
back to 1634, and the modern-day militia is funded by Congress 
under Title authorities since 1903.
    The National Guard clearly is the first choice for homeland 
defense missions. We are forward-deployed in 3,300 communities 
at 2,700 different installations in 50 States, 3 territories, 
and the District of Columbia, each of us serving in 3 unique 
statuses.
    First and foremost, Governor Doug Ducey can call the 
members of the Arizona National Guard to State Active Duty to 
support State requirements.
    Second, he can collaborate with the Federal Government to 
call us to duty under Title 32 authority, a State status which 
is Federally-funded which is currently what is happening in its 
fourth iteration this time with Operation Guardian Support.
    Or he can all us forward under Title 10 authority, the 
President can, to support contingency operations overseas as we 
have for nearly 12,000 man-years since 9/11.
    Since 9/11, the 7,800 soldiers and airmen of the Arizona 
National Guard have deployed for 12,000 man-years. That means 
if each of us had served continuously since 9/11, we would have 
spent 1 year and 4 months overseas. We proudly support this 
mission. Governor Ducey came to me, and I'd to give you some 
specifics, since we are talking about Guardian Support today, 
about how we got to the position we are in today.
    In April 2018, President Trump directed the DoD to support 
U.S. Department of Homeland Security. The Secretary of Defense 
then directed the National Guard to deploy up to 4,000 soldiers 
and airmen to meet the mission requirement to provide aviation, 
reconnaissance, situational awareness for the Southwest Border 
region. This directive did not have a formal named operation 
but was named Operation Guardian Support by Homeland Security.
    Governor Ducey complied with and agreed to do this under 
Title 32 authority. On April 6, 2018, the Arizona joint task 
force formed a planning cell. Three days later we deployed 225 
soldiers and airmen, all of them organic to the Arizona 
National Guard, to be in support of the supported command, in 
this case, our border protection and JTF West and Chief Karisch 
as the operational element subordinate to Chief Provost.
    Today, we have 546 soldiers and airmen deployed from 16 
States supporting 17 directed missions as requested through 
RFAs from DHS. The missions include under the category of 
operational support, radio communications, motor transport 
maintenance, motor transport operations, range safety officers, 
heavy equipment operators, paralegal support, administrative 
and clerical support, information analyst. Under the category 
of surveillance support: Camera and remote camera operations, 
imagery and sensor maintenance, unmanned aerial sensor 
operators. In the area of air support, light- and medium-rotary 
wing lift capacity and fixed-wing reconnaissance capacity.
    The relationship between the Arizona National Guard and DHS 
is not new. For over 30 years, the Arizona National Guard has 
collaborated with the border protection agents that serve 
primarily in our border counties, 4 of them on the 389 miles of 
border between Arizona and Mexico.
    So there is no misunderstanding, Arizona National Guard 
does not act in a law enforcement capacity nor do our citizen 
soldiers--or none of our citizen soldiers are placed in a 
position to come in contact with migrants and are there for the 
sole purpose of providing support to surge posted and armed 
officers to do their enforcement duties. Although not 
constrained by the Posse Comitatus Act under Title 32 duty, law 
enforcement is not our directed mission, and the agreement 
between the Governor and the President has stood since April 
2018.
    I yield back the balance of my time, ma'am. I look forward 
to the questions of the committee. Thank you.
    [The prepared statement of General McGuire follows:]
                Prepared Statement of Michael T. McGuire
                             June 20, 2019
                              introduction
    Good afternoon Chairwoman Rice, Ranking Member Higgins, and 
distinguished Members of the subcommittee. My name is Major General 
Michael T. McGuire, and I am the adjutant general of Arizona and 
director of the Arizona Department of Emergency and Military Affairs 
(DEMA). I appreciate the opportunity to appear before you today on 
behalf of the 7,800 citizen soldiers and airmen of the Arizona National 
Guard to discuss our mission to support the U.S. Department of Homeland 
Security as well as our other local, State, and Federal partners 
through a whole-of-Government approach to address the various 
transnational issues that impact our borders.
    From the Pequot War in 1634 to the current Overseas Contingency 
Operations around the globe and Emergency Response Deployments around 
the Nation, this hearing today highlights a mission that the National 
Guard has capably executed for the past 385 years. The National Guard 
is the modern-day militia, and has a long and honored history of 
service to the country. Although the present-day National Guard was 
established with the Militia Act of 1903, the National Guard's heritage 
can be traced back to the first State-run militia regiments established 
by the General Court of the Massachusetts Bay Colony in 1636. Since 
that day, the National Guard has remained ready to answer the Nation's 
call during times of emergency and conflict. In honor of that great 
tradition, soldiers and airmen of the Arizona National Guard continue 
to stand ready to answer that call.
    The National Guard remains the first choice for homeland defense 
operations, being uniquely trained and situated as the first line of 
support to the Nation's local, State, and Federal first responder and 
law enforcement agencies. Consistent with the citizen-soldier model of 
the early militias, the present-day National Guard is embedded in the 
local communities--policemen and firemen, small business owners, 
carpenters, civil engineers, plumbers, and mechanics. This fact 
provides intangible benefits--not only can the National Guard bring a 
response force with military capabilities but also civilian skills such 
as carpentry, mechanical, civil engineering, and business negotiation, 
but National Guard troops also have home-town familiarity with the 
geographic layout of the affected community, combined with an 
understanding of the most at-risk areas. Put another way, with nearly 
3,300 installations in 2,700 communities around the country, the 
National Guard is America's ``forward-deployed'' homeland response 
force.
            national guard duty status enables local support
    The National Guard is a flexible force provider that can quickly 
provide direct and indirect capabilities based on constantly changing 
requirements and needs. Arizona National Guard supports Department of 
Homeland Security (DHS) requests for mission-enhancing capabilities to 
Customs and Border Protection (CBP) along the Southwest Border 
providing capacity to enhance CBP's ability to impede or deny illegal 
activity and enhance situational awareness.
    Federal and State constitutions and statutes provide the primary 
authority for use of military forces by the Federal and State 
governments. These provisions, insofar as they apply to the National 
Guard, reflect the Constitutional balance of power between the 
sovereign States and the central Federal Government. National Guard 
forces are unique among all other military components in that they may 
be used in one of three legally distinct ways:
    (1) by the Governor for a State purpose authorized by State law 
(State Active Duty); or
    (2) by the Governor, with the concurrence of the President or the 
President's designee (e.g., the Secretary of Defense), for shared 
State/Federal purposes or for a primary Federal purpose (Title 32 
Duty); or
    (3) by the President for a Federal purpose authorized by Federal 
law (Title 10 duty).
                       operation guardian support
    In April 2018, President Trump directed the Department of Defense 
(DoD) to support the U.S. Department of Homeland Security (DHS). The 
Secretary of Defense directed the National Guard to employ up to 4,000 
soldiers and airmen to meet this mission set and provide with aviation, 
reconnaissance, operational, and logistical support to enable DHS to 
increase operational control and situational awareness of the region. 
This directive, though not a formal named operation, has been 
informally nicknamed by DHS as Operation Guardian Support (OGS).
    Arizona Governor Ducey ordered the Arizona National Guard to 
support this Presidential directive, and on April 6, 2018 a planning 
cell within the Arizona National Guard Joint Task Force was activated. 
On April 9, 2018, the Arizona National Guard deployed 225 soldiers and 
airmen to various DHS and CBP outposts along the State's border in 
support of this new border mission. An additional 113 soldiers and 
airmen were deployed 2 days later as authorized by National Guard 
Bureau (NGB). Today, there are 546 soldiers and airmen assigned of 764 
authorized positions with support from 16 States and territories. There 
are 17 mission sets, per the fiscal year 2019 DHS Request for 
Assistance (RFA), operated from 16 Border Patrol and Port of Entry 
stations in the Yuma and Tucson sectors. The types of missions include:
  <bullet> Operational Support.--Radio Communications, Motor 
        Transportation Maintenance, Motor Transport Operations, Range 
        Safety Officer, Heavy Equipment Operations, Paralegal Support, 
        Administrative/Clerical Support, Information Analyst
  <bullet> Surveillance Support.--Camera Operations, USG/Imaging Sensor 
        Maintainer, UAS Sensor Operator
  <bullet> Air Support.--Light Rotary, Medium-Lift Rotary, Fixed-Wing.
    The relationship between the Arizona National Guard and DHS is not 
new. For 30 years, the Arizona National Guard has worked with various 
partners across the Federal Government in areas along the border, 
specifically through the National Guard Counter Drug program as 
codified in the 32 USC  112 as well as various training missions of 
opportunity that present themselves to support both DHS and National 
Guard unit readiness. For example, one of our Transportation Companies 
obtained valuable training by moving concrete barriers from one Customs 
and Border Protection (CBP) Sector to another. In addition, the 
National Guard has supported 3 prior iterations of the border mission 
by providing aviation, operational, logistical, and administrative 
support in Operation Jump Start from 2006 to 2008, and Operation 
Phalanx from 2010 to 2016. Only during Operation Jump Start and the 
first phase of Operation Phalanx did the National Guard provide 
personnel to physically patrol the border to support CBP while 
additional agents were recruited, trained, and deployed. I will discuss 
both of these previous operations and our Counter Drug program in more 
detail in a moment.
    The current OGS mission is being accomplished through the 
identification of specific RFAs by DHS to DoD/National Guard Bureau 
(NGB) for validation and then to the respective State as approved force 
authorization. Citizen soldiers and airmen are then assigned to those 
specific force authorizations. These RFAs require specific functions 
and duties as mentioned earlier--aviation, reconnaissance, and 
operational support--and the Arizona National Guard is filling RFAs at 
all of the border stations within the Tucson and Yuma border sectors in 
Arizona. The current iteration of the border support mission is 
informed by our experience with the previous border missions and has 
evolved based on the changing nature of immigration, transnational 
threats, and technology. Many of these RFAs are administrative in 
nature, which is by design to support DHS and allow them to focus on 
improving situational awareness and operational control along the 
border while they recruit, train, and deploy additional staff and 
agents.
    So there is no misunderstanding, the Arizona National Guard does 
not act in any law enforcement capacity along the border, nor have our 
citizen soldiers and airmen been placed in a position that would come 
into contact with migrants with the sole exception of providing air 
lift capabilities to transport migrants experiencing an emergency life-
threatening situation to a civilian medical facility. Although not 
constrained by the Posse Comitatus Act due to Title 32 deployment 
status, law enforcement is not our mission. Further, DHS has never 
requested the National Guard act or assist in a law enforcement 
capacity in any iteration of these border missions, and a long-standing 
Department of Defense directive specifically states that the Guard 
members will not act in a law enforcement capacity. The Arizona 
National Guard is strictly providing support, and, when done right, 
that support provides a training value to our military missions--in 
particular with the aviation, engineering, and ports of entry mission 
sets.
    To date through fiscal year 2019 in Arizona alone, CBP has credited 
the National Guard with supporting CBP with over 26,500 apprehensions 
and seizure of more than 18,000 pound of marijuana, methamphetamines, 
and fentanyl. Aviation assets from Arizona and other States have 
provided nearly 3,000 flight hours in support of OGS. Arizona and other 
Guardsmen have also serviced 3,929 CBP vehicles, qualified 5,100 CBP 
personnel with their quarterly firearms requirement, and repaired/
serviced 1,216 miles of roads. Additionally, individual readiness 
(medical and physical fitness) among Arizona Guardsmen has remained 
higher than State averages and that translates into increased unit 
readiness. Other activities like aviation and intelligence analysis 
directly align with yearly training requirements. General duties like 
Mission Command, Administrative Support, and Logistics enhance the 
soldier or airman's practical experience, all of which contribute to 
warfighter readiness.
    As stated in my opening paragraph, a whole-of-Government approach 
is key. OGS supports DHS as a whole, but currently has only provided 
support to fill RFAs from CBP. The biggest threats along the border are 
not limited to illegal border crossings, but include violence and the 
trafficking of drugs, humans, and weapons. Separate from OGS, the 
Southwest Border legacy mission appropriation provided in the fiscal 
year 2019 DoD budget has allowed the Arizona National Guard to place 14 
soldiers on orders to conduct mission analysis and training activities 
that support operations in Arizona's counties along the Southwest 
Border while improving readiness of the Arizona Army National Guard in 
areas such as aviation, transportation, and maintenance. Locally-
developed partnerships like the Alliance to Combat Transnational 
Threats is a model for local, State, and Federal law enforcement 
coordination. As proof of this whole-of-Government success, we offer 
the Arizona National Guard Counter-Drug mission which partners with 
over 70 local, State, and Federal law enforcement agencies. In our 
domestic role, the National Guard is always in support of another 
agency, whether it is responding to an emergency, combating 
transnational crime, or supporting greater operational control and 
situational awareness of the border region. Operation Guardian Support 
is another opportunity to provide whole-of-Government support to our 
local, State, and Federal partners.
  current arizona national guard partnerships--counter drug task force
    Through the Arizona National Guard Counter Drug Task Force, we 
partner with over 70 local, State, and Federal law enforcement 
agencies. Authorized by the National Defense Authorization Act in 1989 
under 32 USC  112, the National Guard Counter Drug Program authorizes 
up to 4,000 National Guard members to perform drug interdiction and 
counterdrug activities in all 54 States and territories. The Arizona 
National Guard's Counter Drug program, referred to as the Counter Drug 
Task Force, began operations in 1989 and is currently the fourth-
largest program in the country. The mission of the Counter Drug Task 
Force is based in law and provides military counterdrug and drug demand 
reduction support to local, State, and Federal law enforcement agencies 
and community-based organizations. For the past 30 years, the highly-
skilled soldiers and airmen of the Counter Drug Task Force have 
provided unsurpassed operational counterdrug support, and continue to 
offer the continuity necessary to foster and maintain positive 
relationships with over 70 Federal, State, and local drug enforcement 
agencies and community organizations across the State of Arizona, 
including: Customs and Border Protection, Homeland Security 
Investigations, Drug Enforcement Administration, Federal Bureau of 
Investigation, Arizona High Intensity Drug Trafficking Area Center, 
Arizona Department of Public Safety, Arizona Counter-Terrorism 
Information Center, Metro Intelligence Support and Technical 
Investigation Center, Arizona Alliance to Combat Transnational Threats, 
USNORTHCOM, Joint Task Force North, and various county and city law 
enforcement agencies.
    Serving in full-time National Guard Duty--Counter Drug status in 
accordance with 32 USC  112, these soldiers and airmen are under State 
control and are not subject to the the Posse Comitatus Act. Counter 
Drug Task Force members have been given authorization to perform 
``Support Only'' Counter Drug duties. It is this support role that 
brings the greatest benefit to our partners. The Counter Drug Task 
Force provides specific skill sets in support of civilian agencies, 
enhancing their capabilities and at the same time allowing them to 
devote their skill sets to their primary mission. These skill sets 
include: Investigative Case and Analyst Support, Communications 
Support, Ground Reconnaissance, Aerial Reconnaissance, and Civil 
Operations, formerly known as Drug Demand Reduction. These skills 
exercised through the Counter Drug Task Force in turn keep National 
Guard members in ready form when they are needed for other operations 
under the Governor's or the President's command.
                      past support to dhs and cbp
    Arizona has a total land area of just over 113,998 square miles and 
is the sixth-largest State in the Union. Arizona has an estimated 
population of well over 7 million. Arizona shares 389 miles of 
international border with Mexico and has 7 major ports of entry. Found 
between Arizona's ports of entry are a variety and combination of 
barriers that include pedestrian fencing, vehicle fencing, Normandy 
barriers, triple-strand barbed wire fencing and cattle guard crossings 
located on the Tohono O'odham Indian Reservation only. The sovereign 
territory of the Tohono O'odham Nation straddles 75 miles (28 percent) 
of the Arizona/Mexico border. Nearly one-third of this reservation 
extends south directly into Mexico, and members of the Tohono O'odham 
Nation living on Tribal lands can freely traverse the border. Last 
month, the Tohono O'odham Nation approved a proposal by CBP to 
construct a virtual wall of 10 integrated fixed towers on Tribal lands 
to deter migrants and smugglers.\1\
---------------------------------------------------------------------------
    \1\ Hennessy-Fiske, Molly. ``Arizona Tribe Refuses Trump's Wall, 
but Agrees to Let Border Patrol Build Virtual Barrier.'' Los Angeles 
Times, Los Angeles Times, 9 May 2019, www.latimes.com/nation/la-na-
arizona-tribe-border-patrol-trump-wall-20190509-htmlstory.html.
---------------------------------------------------------------------------
Operation Jump Start (June 2006-July 2008)
    On May 15, 2006, President George W. Bush declared Operation Jump 
Start as a 2-year, $1.2 billion program spread across the 4 Southwest 
Border States. The mission required 6,000 National Guard members the 
first year, and 3,000 the second year. The Department of Homeland 
Security and Customs and Border Protection were allocated forces based 
on their assessed needs that resulted in Arizona receiving 40 percent 
of the forces; the largest percentage of the 4 Southwest Border States. 
The goal of Operation Jump Start was to augment Customs and Border 
Protection with additional manpower for administrative and operational 
assistance missions, alleviating Border Protection agents of these 
responsibilities and allowing those agents to be sent back out to the 
field where they were needed most. Guard members from 51 of the 54 
States and territories served in Arizona performing duties that 
included Entry Identification Teams, camera operators, logistical 
support, aviation support and engineering support. In total, 17,750 
personnel participated on the mission. These personnel were comprised 
of individual volunteers, sourced unit rotations, and unit annual 
training rotations. During the first year of Operation Jump Start, an 
average of 2,400 National Guard personnel conducted operations in 
support of law enforcement efforts in Arizona. That number was reduced 
to 1,200 personnel during the second year.
Operation Phalanx Phase One (July 2010-February 2012)
    On May 25, 2010, President Obama directed the temporary use of up 
to 1,200 National Guard personnel on the Southwest Border to support 
Department of Homeland Security requirements. Arizona was authorized 
560 of the 1,200 personnel for the mission which equates to 46 percent 
of total mission personnel. Like Operation Jump Start, National Guard 
personnel are funded under U.S. Code Title 32  502(f), in accordance 
with the published Department of Defense order. Operation Phalanx 
supports both Customs and Border Protection and Homeland Security 
Investigations by supporting three key mission sets: Entry 
Identification Teams, Video Surveillance System support, and 
Intelligence Analysis.
    Of the 560 personnel initially authorized for Operation Phalanx in 
Arizona, 504 personnel were tasked to support entry identification 
sites that operated on a 24-hour basis in close proximity to Arizona's 
Southern Border. Soldiers and airmen staffed 25 overt Entry 
Identification Team sites across 4 stations in the Tucson sector. Due 
to increased threat and violence along the international border, 
Arizona National Guard personnel were armed and assumed a higher arming 
status than similar missions during OPERATION Jump Start. Rules for the 
use of force were clearly defined, published, and provided to each 
service member on the mission.
Operation Phalanx Phase 2 (March 2012-December 2016)
    In December 2011, the Department of Defense announced National 
Guard personnel supporting the Department of Homeland Security would be 
reduced from 1,200 to no more than 300 personnel and included a change 
in mission. In addition to continuing the intelligence analyst mission, 
the National Guard transitioned from a ground observation role to an 
aerial reconnaissance mission.
               ways to improve operation guardian support
    There are limited mission modifications necessary. The CBP and 
Arizona National Guard have remained aligned in requests and support. 
The highly flexible nature of the National Guard and our constant 
communication with CBP has ensured we are meeting the needs of CBP in 
this dynamic environment.

    Miss Rice. Thank you, Major General.
    I thank all the witnesses for their testimony. I will 
remind each Member that he or she will have 5 minutes to 
question the panel. I will now recognize myself for questions.
    Chief Provost, the subcommittee, in planning this hearing, 
invited the military adviser to the Secretary of Homeland 
Security to testify about these efforts. But we were informed 
that he was not ready to do so because he was newly reassigned 
to that position and did not feel that he could get up to speed 
even with 2 weeks time.
    My question to you is, is the U.S. Border Patrol the sole 
entity within DHS that is coordinating these joint efforts with 
the Department of Defense at this time?
    Chief Provost. Thank you for the question, ma'am.
    No, Chairwoman, that is--we are not the sole ones. I will 
tell you, we work very closely with DoD. We do have planners 
that are embedded with them, because the majority of the 
support is supporting my men and women between the ports of 
entry, though as discussed earlier, a lot of work has been done 
within CBP as well at the ports of entry. So we are probably 
the main receivers of the support from the Border Patrol side 
of the house.
    Miss Rice. My question is, when you are in need of 
something and you are reaching out to DoD, are you doing that 
directly?
    Chief Provost. We have planners embedded with them. We 
create--from Border Patrol and from CBP, we do create the 
request for assistance in conjunction. Then we work with our 
partners at DoD. So that is being handled by some of my 
personnel.
    Miss Rice. So before you make any request, are you running 
that up the chain through DHS and the leadership there?
    Chief Provost. Yes, ma'am.
    Miss Rice. Do you have conversations with anyone in the 
administration outside of DHS?
    Chief Provost. Outside of DHS? Do I?
    Miss Rice. Yes.
    Chief Provost. No, I do not.
    Miss Rice. OK.
    OK. I just want to continue with you, Chief Provost, 
because you spent some time during your testimony talking about 
the seizure of drugs that we know happens at our border. My 
question to you is, has DHS conducted any assessments on the 
impact that DoD's planned or proposed border wall projects for 
areas between ports of entry might have on the volume of 
illegal narcotics entering the country?
    Chief Provost. When it comes to the illegal narcotics 
coming across, there are really two types. There is what we 
know, meaning what we have seized, and then what we don't know, 
which is a difficult thing. I know Congress has asked numerous 
times on that. The area of 2,000 miles along the Southwest 
Border with Mexico, though, is a very vast and expansive area. 
As I stated in my opening statement, my concerns are what is 
getting across that I do not know about. I do know that the 
cartels are taking advantage of the humanitarian crisis. The 
example that I gave----
    Miss Rice. No. No. No. I don't mean to interrupt, but I 
have an limited period of time.
    Prior to DoD going ahead with, as Mr. Salesses has talked 
about, them building actual barriers at the border, did DHS 
conduct a study to see if they were building in the right areas 
and what impact that would have on the drugs that are coming 
across the border?
    Chief Provost. Border Patrol has identified where we need 
barrier. We have done that through a field-driven process where 
my field leadership and each of their respective areas 
identifies, and through the border security improvement plan, 
we have identified those miles where we have high traffic of--
whether it is narcotics, illegal activity.
    So we had already----
    Miss Rice. So you do--so you do the assessment.
    Can we see that assessment that you have done?
    Chief Provost. The border security improvement plan?
    Miss Rice. Well, and any updates to that that may--that are 
driving where DoD is doing their work.
    Chief Provost. We have provided that to some. I will ensure 
that you have our border security improvement plan.
    Miss Rice. OK. In May of this year, both Acting Secretaries 
of DHS and DoD announced their intent to continue joint efforts 
on the Southern Border. The chairman of the joint chiefs of 
staff later confirmed this by announcing that the Pentagon is 
working with DHS to develop what they called a multi-year plan 
for the border suggesting that DoD will deploy personnel to the 
Southern Border for at least the remainder of this current 
administration.
    My question is to you, Mr. Salesses, is you mentioned 
previous instances where there was this collaboration that 
seemed primarily on a temporary basis. When you used the word 
multi-year, that kind-of--that doesn't sound so we are trying 
to address a crisis that is happening right now. That seems 
more like you are planning on embedding yourselves on the 
border for the long haul. So my question is, what is the status 
of this planning effort and what are its objectives?
    Mr. Salesses. Chairwoman, it is actually a joint venture. 
We have provided military planners to DHS. We actually have 
provided a general officer to work with DHS and CBP to develop 
a longer-term plan. We know that the crisis continues. But we 
want to know what the future looks like and to plan for that.
    So there is a team that has been put together. They are 
developing a what we refer to as campaign plan to make sure 
that we understand where all the deficiencies are and the gaps 
are, not just at the Southern Border but within the whole 
immigration system starting from what happens in Central 
America to what happens in the immigration process all the way 
to--back to DOJ in that regard.
    Miss Rice. OK. Thank you.
    Now, I know I am out of time, but I just--Chief Provost, 
and I guess to you, Mr. Salesses. It seems to me that the 
reason why DoD has to come in is because you, as the CBP and 
higher up the chain to DHS, have decided that you are going to 
take trained Border Patrol agents away from their--the jobs 
that they are trained to do and have them doing different 
things that independent contractors could be hired to do so 
that you wouldn't create the crisis and need DoD to intervene.
    So I just wanted to throw that out, because it seems to me 
that, you know, to take Border Patrol agents away from what 
they are trained to do and have them doing, you know, 
activities that can be done by hiring independent contractors, 
which you have been given the money to do, seems a little 
shortsighted. But I don't have any time for any more questions, 
so I just wanted to comment on that.
    I now recognize the Ranking Member of the subcommittee, the 
gentleman from Louisiana, Mr. Higgins, for questions.
    Mr. Higgins. Thank you, Chairwoman.
    Chief Provost, you mentioned that the decisions made 
regarding enhanced physical barriers, the specific miles of 
those requested barriers, and some that are under construction 
was field-driven. What do you mean by that, ma'am? Would you 
clarify? That means that, based upon data, that--provided by 
actual boots-on-the-ground knowledge of where enhanced physical 
barrier is needed, can you clarify that, please?
    Chief Provost. Certainly, sir. I have 9 sectors along the 
Southwest Border. In each of those sectors, I have Border 
Patrol agents, ground agents that are involved in the process 
of identifying where a barrier is needed. That goes all the way 
up through the respective chief of each sector. They identify 
within their areas of responsibility where they believe that 
barrier makes sense in supporting our mission.
    Mr. Higgins. Not to interrupt you, madam, but you are not--
you are referring to one continuous long barrier, or are you 
talking about 17 miles here, 15 miles there, 10 miles the next 
place, et cetera?
    Chief Provost. That is correct. It is dependent upon the 
traffic. We look at--when we talk about operational control, we 
look at the need for situational awareness, which often comes 
through technology or personnel, the response, which is our 
personnel, and impedence and denial, which is what that barrier 
brings.
    Mr. Higgins. Yes, ma'am.
    You also mentioned, and thank you for clarifying that, 
because no one is talking about putting a 30-foot wall on top 
of a 200-foot cliff, are we?
    Chief Provost. No.
    Mr. Higgins. There is already a 200-foot wall there.
    Chief Provost. Big Bend sector would be an example of 
natural barriers.
    Mr. Higgins. You mentioned layers of security in your 
opening statement. You mentioned technology to detect an 
incoming illegal crossing. You mentioned physical barrier to 
deter, I believe was your language----
    Chief Provost. To impede and deny.
    Mr. Higgins [continuing]. That physical crossing, and to 
delay it. You mentioned enhanced capacity to respond. This is 
generally the layered security that we have referred to in this 
subcommittee. Would you concur that that is the type of 
security that we need? That these elements work together.
    Chief Provost. In my 25 years now that I am coming up on on 
the border, I have seen the benefits of a mixture of these 
resources. That mixture varies depending upon locations. But it 
is a mixture. It is not one or the other. We need some of all 
of this.
    Mr. Higgins. Thank you. I'd like to give you an opportunity 
to address the status of the spirit of your men and women as 
they face unending stress and crisis every day. I commend you, 
ma'am, and American men and women that serve our country on the 
border. I just cannot imagine how they can continue day after 
day after day.
    Would you, please, address what I might refer to as a 
humanitarian crisis growing within our own forces there?
    Chief Provost. Certainly, sir. Thank you for that question.
    First and foremost, my men and women are the ones doing the 
real job out there, and I am just honored to have the 
opportunity to represent them.
    This crisis, and it is a crisis, I have stated it before, 
is certainly having an impact on my men and women. The hours 
that they are working, the things that they are seeing, the 
time it is taking them away from their families, this is like 
no other crisis that I have seen in my career when it comes to 
the humanitarian side of the house. It is certainly draining on 
my men and women. When I go out and see them, I am extremely 
impressed with their resiliency. But they are working long 
hours. Many of them are detailed away from home supporting the 
overtime hours. Border Patrol agents already work a 50-hour 
week. Then I am asking them to work even more with overtime to 
be able to deal with the crisis. So it certainly puts a strain 
on them personally, and it has an impact on their families 
because they are away from home as well as they are dealing 
with this, not to mention the things they are seeing.
    Mr. Higgins. Well, they are to be commended and given great 
honor for their service.
    Do you think that it would do well for the spirit of your 
men and women to know that Congress had their back? That 
Congress was going to provide the resources that they had been 
requesting for a long time and is badly needed?
    Chief Provost. Yes, sir, that would certainly help.
    Mr. Higgins. Thank you, ma'am.
    General McGuire, I give you my remaining time, sir, 15 or 
20 seconds, just to address the military readiness and if your 
deployment has impacted, your overall mission from military 
preparedness, as these hours, these flat hours, et cetera, this 
active-duty time, has it been helpful?
    General McGuire. It actually has been very helpful for us 
to develop readiness. I will give you one example. We had a 
battalion headquarters deployed down from a State, it was 
Wisconsin, a year ago. They were converting to Mike model Black 
Hawks, and they were able to do all their readiness level 
progression training in support of border protection there from 
Silver Bell Army heliport. Got up on step in the new helicopter 
much quicker than if they had been home throughout that entire 
year.
    Mr. Higgins. So this mission has actually, in your opinion, 
General, enhanced military readiness and preparedness?
    General McGuire. It doesn't degrade military readiness. We 
assign soldiers based on their military specialties and airmen 
based on their military specialties to expand skills that could 
be adapted back. The biggest risk to mission long-term is our 
ability to make sure that in States like Arizona and Texas that 
are providing the majority of the force that is in support, 
that they have the opportunity to do the mission command task 
back at their unit so senior NCOs warrant officer and officers 
have the opportunity to train, to platoon company level 
readiness for those formations on their drill weekends.
    Mr. Higgins. Thank you for that clarification, General, and 
for your service.
    Madam Chair, I yield back.
    Miss Rice. Thank you, Mr. Higgins.
    The Chair will now recognize other Members for questions 
they may wish to ask the witnesses. In accordance with our 
committee rules, I will recognize Members who were present at 
the start of the hearing based on seniority on the committee 
alternating between Majority and Minority. Those Members coming 
in later will be recognized in the order of their arrival.
    The Chair now recognizes for 5 minutes the gentleman from 
Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you, Madam Chair.
    Chief, will you provide the committee how you are measuring 
the effectiveness of this joint deployment with DoD? What are 
your matrix?
    Chief Provost. Thank you, Chairman. There are numerous 
metrics that we track when it comes to the benefits that--
whether it is my men and women or the DoD are bringing. That 
has to do with border security and operational control.
    We track our interdiction effectiveness rate. I spoke to 
got-aways earlier. That is one of the things that we track, as 
well as apprehensions, seizures, all of these types of things. 
We are tracking the specific numbers. As I stated, DoD has 
specifically helped us with over 100,000 apprehensions as well 
as drug seizures in marijuana, cocaine, and methamphetamine. 
That support, as my agents are being pulled away to deal with 
the humanitarian crisis, is key when it comes to us having 
situational awareness on the border, because my resources are 
depleted.
    Mr. Thompson. So do you have any resources at this point 
based on the Chairperson of the subcommittee's comments to 
contract for any of those services you are taking the agents 
away?
    Chief Provost. We have numerous contracts. I will use the 
medical, for example. When it comes to medical care, we have 
expanded our contracts there. When it comes to transportation, 
we do have contracts. That is just not sufficient to keep up 
with the amount of transportation that I need. A part of that 
has to do with the contractors' ability to get through--get 
enough individuals into the area. So most recent has been----
    Mr. Thompson. So is it a matter you don't have money for 
the contracts, or is it the contractor you are using, just as 
you said, doesn't have the ability to find people?
    Chief Provost. It is both, sir. When it comes to the amount 
of money that we have been spending on the humanitarian, we 
need more funding to support those contracts. At the same time, 
working in remote locations, it is difficult to get personnel 
into those locations at times. There aren't necessarily just--
there are not necessarily individuals with the correct 
background to be able to work in the positions that we need 
them in.
    Mr. Thompson. What I would like you to provide for the 
committee is your efforts to extend the contracts for services 
that you presently contract for that you are now deploying your 
agents to do. Can you provide----
    Chief Provost. Certainly. We have the information on our 
contracts to include our transport and our medical contracts. 
We can----
    Mr. Thompson. I am looking for your efforts to expand those 
contracts. You gave medical or any other contracts.
    Chief Provost. Definitely.
    Mr. Thompson. Thank you.
    Chief Provost. Sure.
    Mr. Thompson. Mr. Salesses, at this point, how much can you 
provide the committee in terms of the cost of that--the 
deployments up to this point.
    Mr. Salesses. Chairman, the estimated cost for the military 
support is about $400 million.
    Mr. Thompson. To this point.
    Mr. Salesses. Yes, sir.
    Mr. Thompson. Are you familiar with Section 2808?
    Mr. Salesses. Yes, sir.
    Mr. Thompson. OK. So if you looked at that--have we 
accessed any of those funds to build a border wall?
    Mr. Salesses. Sir, we have not. There is no decision been 
made at that point. The Department continues to assess the use 
of 2808.
    Mr. Thompson. Do you have any idea when the assessment will 
be complete?
    Mr. Salesses. Sir, I don't. You know, we have had a number 
of reviews and analysis of the border barrier in support of 
2808, and that decision is pending. It could come in the next a 
couple of weeks.
    Mr. Thompson. Well, the reason I ask is the deployment was 
predicated on a National emergency, and, you know, we have been 
at this a good while. So if it is a National emergency, you 
know, it either is or it is not. If it is this emergency, is 
that decision a DoD decision, or is it a decision at the White 
House?
    Mr. Salesses. Sir, it is a DoD decision.
    Mr. Thompson. It is DoD?
    Mr. Salesses. Yes, sir, it is. It is the Secretary of 
Defense's. It is military construction that is necessary to 
support the use of the Armed Forces is what the authority says. 
So it is the Secretary's decision to make that determination. 
Again, he is working with the Chairman and others to assess the 
proper use of that. As you know----
    Mr. Thompson. I understand. But we have all been told that 
we need to build this big beautiful border wall, and so that is 
an issue.
    So do you think it is appropriate to use DoD assets to 
paint a border wall?
    Mr. Salesses. Sir, in fairness to you and I, the reason the 
wall is being painted is CBP and DHS asked us. This paint that 
is being applied has been--has indicated that there is an anti-
climb feature, so if people try to scale the wall, that that 
makes it very difficult. So this is a test of 1 mile to see how 
effective that anti-climb paint is going to be. That is----
    Mr. Thompson. So you are saying it is fine----
    Mr. Salesses. Yes, sir.
    Mr. Thompson [continuing]. To paint it?
    Mr. Salesses. To support this effort, with everything that 
is going on, it seems like a reasonable----
    Mr. Thompson. Chief, can you tell why we can't contract for 
the painting of the wall?
    Chief Provost. I cannot speak to the funding aspect of it. 
I identify the operational requirement that I have when it 
comes to barriers.
    Mr. Thompson. So just for the record, who determined to 
paint the wall with military assets?
    Mr. Salesses. DHS and CBP asked for our assistance to do 
that, asked DoD for that assistance. We are using engineers to 
do that, the same engineers that put the concertina wire on 
top.
    Mr. Thompson. So, Chief, you asked for the military to 
paint the wall?
    Chief Provost. So we have asked for that support, I 
believe, in one of the RFAs. RFA 7, I believe.
    Mr. Thompson. Well, can you provide the committee with 
whatever direction that request to paint the wall by the 
military went to?
    Chief Provost. Certainly.
    Mr. Thompson. Thank you, I yield back.
    Miss Rice. Thank you.
    The Chair now recognizes, for 5 minutes, the gentlewoman 
from Arizona, Mrs. Lesko.
    Mrs. Lesko. Thank you, Madam Chairman.
    I am going to start by reading an article that was 
published 6 days ago in the Arizona Republic.
    ``The body of a 7-year old girl was found Wednesday about 
17 miles west of Lukeville in a remote desert area, U.S. 
Customs and Border Protection said. Officials believe the child 
was India trying to cross from Mexico into the United States 
with a group from that country, according to the agency. Border 
Patrol agents believe human smugglers dropped the group near 
the Mexican border where they were told to cross the terrain 
into Arizona alone, the agency said. Agents searched for the 
missing people north of the border in remote terrain. They 
eventually found the little girl's body after a few hours. The 
remote area where she was found is a rugged desert wilderness 
with few roads and resources. The area had a high temperature 
around 108 degrees Wednesday. After agents found the girl's 
body, they continued to search for the other 2 people who had 
been traveling with her, the release said. The National Guard 
and U.S. Customs and Border Protection sent out aircraft and 
helicopters to search the area.''
    I am not going to read the rest of it, because I only have 
3 minutes and 40 seconds left. But the point of reading this is 
that we have a crisis at the border. We have had a crisis at 
the border. I live in Arizona. I have been to the border. So it 
wasn't so long ago that Speaker Pelosi and Senator Schumer said 
this is a manufactured crisis.
    So I am very happy to hear today from both the Chairman and 
the Committee Chairman that they are actually acknowledging 
that there is a crisis now. So I really hope that we will work 
together, as I said before, to try to change some of these 
policies. Because as you can tell from this story, the 
smugglers could give a darn about these migrants. The smugglers 
are making money off these people.
    So instead of blaming President Trump, I wish we would put 
the blame where it belongs, with these smugglers, with the 
cartels, with the people that are abusing these migrants. Also 
with us, quite frankly, because we are not changing our 
policies.
    Last year we had two pieces of legislation that I know of 
where we could have changed our policies to help stop this flow 
of the smugglers exploiting migrants. But not one of my 
Democratic colleagues voted yes.
    Now, fortunately, we have in the Senate some type of 
potential agreement to fund the humanitarian crisis over there 
at least, which has been rejected I think 17 times by my 
Democrat colleagues in the House.
    So I want to work with you. I am not trying to be 
disparaging. But I do have a question for you, Chief Provost. 
How would the funding for the humanitarian crisis, the $4.6 
billion that is being proposed, help you to solve the crisis at 
the border?
    Chief Provost. Thank you, ma'am.
    Well, in numerous ways. You just mentioned it when you 
talked about the tragedies that we are seeing out there. The 
rescues, we have already rescued over 3,300 people crossing the 
border. As you identified, the temperatures are rising. This is 
a dangerous time of year.
    That funding would help in relation to all of the 
humanitarian expenses that are coming out of my operating 
budget right now, help support those medical contracts, 
transportation, help support when it comes to air support and 
getting--being able to get out into those remote areas, all of 
the consumables of taking care of these folks when they are 
coming into our custody and our care.
    Those are expenses that are not in my baseline budget. They 
are just not there because of this crisis coming up here over 
the last year. It would support all of those efforts, the care 
of the individuals in our custody when it comes to the 
humanitarian crisis and then dealing with just what we see on a 
day-to-day basis on the border.
    Mrs. Lesko. Thank you very much.
    With the short time I have left, General McGuire, can you 
provide some examples of the positive impact the National Guard 
has had working with CBP on the border?
    General McGuire. Well, ma'am, you mentioned the unfortunate 
incident we had just a couple weeks ago. Fortunately, the 
aviation and rotary wing support that we have had has led to no 
less than one humanitarian save of a life in the desert every 
time we have done this, and this is our fourth iteration of 
this.
    We have a great relationship with the JTF West Command and 
the Tucson and Yuma Sector chiefs. Because of the nature of us 
only getting involved when there is an emergent condition to 
answer the call, we have picked up a number of their 9-1-1 
calls and been able to be in support of them.
    The other thing I would say that has been hugely successful 
is it is great for our soldiers and airmen because they get the 
opportunity to contribute to their local communities. We just 
redeployed 400 soldiers from Afghanistan a month ago. All of 
them had been there for 10 months, so 400 of them redeployed, 
58 of them asked immediately to turn around and try to fill the 
200 soldier and airmen gap we have between what we presently 
have on the border and willing to go forward.
    They are motivated to help. Fifteen percent of our 
guardsmen serve in their civilian capacity in police and law 
enforcement. It is the No. 1 sector for our National Guard 
formations. So they have a strong kinship with the Border 
Protections and Customs, OFO, and all the groups that they work 
with along the border. So it has been a great opportunity for 
all of them.
    Mrs. Lesko. Thank you, Madam Chair.
    Thank you for all the men and women that work in CBP, 
Department of Defense, the National Guard. You guys are heroes. 
Thank you.
    Miss Rice. Thank you.
    The Chair now recognizes for 5 minutes the gentlewoman from 
New Mexico, Ms. Torres Small.
    Ms. Torres Small. Thank you.
    Thank you, Chief Provost, for your long tenured career and 
service in the Border Patrol. Thank you as well, Mr. Salesses, 
as well as Major General McGuire, for your service to our 
country.
    I have the honor of representing New Mexico's Second 
Congressional District. I am the only Member of the Homeland 
Security Committee that represents a district directly on the 
U.S.-Mexico border, and I serve on both House Armed Services as 
well as Homeland Security. So this is an important issue.
    Chief, I also just want to thank your staff. Dan has been 
great to work with, and thank you for that.
    So, back to this issue, when DoD redirected $1 billion from 
military personnel to build 57 million--or 57 miles of wall, a 
lot of it is in some rural parts of my district. That is why 
the analysis of why that is going to make impact really matters 
to me.
    Part of that needs to be--with everything that is going on 
in the border, part of that is about the drug interdiction, 
sector by sector. I know that the committee has actually asked 
for that information, the sector-by-sector analysis, and it 
hasn't received it.
    So, Chief, would you commit to providing that sector-by-
sector drug interdiction information?
    Chief Provost. I will go back to the Department and see 
whether or not--I know we provide National. I am not sure when 
it comes to specific sector-by-sector. But I can tell you in 
the border security improvement plan, that that is part of the 
analysis that we do, and we will ensure that you get that plan.
    Ms. Torres Small. Well, thank you. The most up-to-date 
information is very helpful. We have to make sure we are 
adapting to changing circumstances. I really appreciate that 
your office has provided the El Paso sector information--drug 
interdiction information to my office recently, so I know it is 
possible to do.
    Chief Provost. Very good.
    Ms. Torres Small. So, if you can commit to it, I would 
deeply appreciate it.
    Chief Provost. OK.
    Ms. Torres Small. Thank you so much.
    Moving on, I deeply also appreciate Border Patrol's 
investment in these potential support positions to do some of 
the work that is currently taking Border Patrol agents and 
Customs officers off of the line and from the ports of entry 
when it comes to, for example, hospital watch or 
transportation. We are excited to support that effort. So I 
wanted to get some more information from you specifically on 
the qualifications that you see will be necessary for that 
position.
    Chief Provost. Certainly. We are in the process, as you 
well know, of developing that position and ensuring that--as 
well as the training that will go with that new position that 
we have created. It is in the final phases of determining 
everything that will go into it. So I do not have the full 
analysis.
    Of course, we have our attorneys and everyone involved when 
it comes to what they need for all of the legal aspects of the 
position. But that being said, we are very, very close to 
having all of that completed and would be more than happy to 
get that to you.
    Ms. Torres Small. Thank you. As Congress looks at what and 
how to fund this humanitarian crisis, as much information about 
this position will be helpful.
    The other conversation that you had about contracting 
support----
    Chief Provost. Yes.
    Ms. Torres Small [continuing]. And the challenges, as well 
as I am pleased to hear that you are working to expand that 
support, will these supplemental, these support positions 
supplement the contract support or replace it?
    Chief Provost. I apologize, ma'am, if I didn't understand 
the question. The supplemental positions?
    Ms. Torres Small. Yes, these--sorry.
    Chief Provost. Those would be helping in processing, 
transport some of those, so it would support it. I would tell 
you obviously the time to hire and those types of things will 
take some time to hire and train individuals to--so to say 
depending--you know, whether it would ultimately fully take 
away the need for the contract support, I can't say at this 
point.
    Ms. Torres Small. OK. Our sense is that the need is so 
strong that it doesn't necessarily require replacement. We 
would be eager to see you expand as much as possible this--some 
of the needs here.
    Chief Provost. Yes, ma'am.
    Ms. Torres Small. Thank you. Do you have a hiring target 
for these support positions?
    Chief Provost. I do not have the total number yet on that. 
That is one of the things that we are trying to finalize right 
now.
    Ms. Torres Small. In my short remaining time, I just want 
to switch to military readiness as a member of House Armed 
Services. How is--sorry, Mr. Salesses, how is the DoD tracking 
potential impacts and declines in readiness?
    Mr. Salesses. So, Congresswoman, you can imagine from your 
experience on the House Armed Services Committee, we watch that 
very closely. So the chairman of the joint chiefs, the 
Secretary, the service secretaries, the service chiefs all 
monitor the readiness and, in fact, I just received the 
readiness briefing last week. Predominantly, it is Army and 
Marine Corps forces being deployed right now, and so they----
    Ms. Torres Small. Just with the 4 seconds left, how are 
they monitoring it?
    Mr. Salesses. Well, they monitor it through the process, 
the DRRS process that we have, which allows you to--the 
commanders at the local level, at the higher levels to input 
the readiness of the units based on personnel, based on 
equipment, based on their training and those kinds of things. 
So it is a very--the DRRS system is a sophisticated system.
    Ms. Torres Small. You are tracking the continued impact?
    Mr. Salesses. Yes, ma'am, we are.
    Ms. Torres Small. Thank you. I yield back.
    Miss Rice. Thank you.
    The Chair now recognizes for 5 minutes the gentleman from 
Pennsylvania, Mr. Joyce.
    Mr. Joyce. Thank you for yielding, Madam Chairwoman, and 
thank you for convening this hearing on one of the most 
critical and important topics that we face in Congress today. 
There is an unprecedented crisis that we as a Nation face on 
our Southern Border. Over 144,000 immigrants attempted to 
illegally enter between ports of entry along the Southwest 
Border in May 2019, a 622-percent increase over the same month, 
just 2 years ago.
    In the face of the inaction by Congress on this matter, 
President Trump has had to declare a state of emergency and 
direct the Secretary of Defense to deploy National Guard troops 
to the border to help CBP deal with this incredible crisis.
    It is necessary to point out that the reason for a National 
Guard presence at the border, as I learned from taking--talking 
to Border Patrol agents in Arizona just a month ago, is that we 
currently are overwhelmed at Border Patrol.
    We are overwhelmed because my colleagues across the aisle 
refuse to take up the necessary legislation to fix the 
loopholes in our asylum system and because of the refusal to 
allocate the necessary $4.5 billion in emergency aid that the 
Department of Homeland Security has asked for in order to feed 
and shelter the families and unaccompanied children.
    In fact, they blocked legislation that would do so 15 times 
in the last month alone. The unwillingness of Congress to solve 
this problem prompted me and 4 Members, colleagues from the 
Pennsylvania delegation, to ask our Governor to send 
Pennsylvania National Guard to the Southern Border. 
Unfortunately, the Governor called this a stunt, and he called 
the crisis on our Southern Border hyperbole.
    So, today, I intend to find out from you, our experts, 
whether the Governor's assessment of the situation is correct 
or whether more National Guard troops are needed and could be 
effective at our border.
    Chief Provost, I understand multiple States have sent 
National Guard troops and assets to assist with the Operation 
Guardian Support mission. Today's statements indicate that 
there are currently 546 soldiers and airmen deployed out of the 
necessary 764 that are authorized in positions.
    If the State of Pennsylvania tomorrow offered you 
additional National Guard forces, would you be able to make use 
from them and would you be able to better secure and protect 
our Southern Border?
    Chief Provost. Thank you, sir. Certainly. The--as I stated 
in my opening statement, the support from the Guard and DoD has 
been invaluable, particularly as my resources have been 
diverted away, 40 to 60 percent of my resources being diverted. 
It concerns me about border security. We are dealing with a 
humanitarian crisis, but that is negatively impacting our 
ability to secure the border, and border security is National 
security.
    Mr. Joyce. Additionally, Chief Provost, do you think that 
describing the current situation at our Southern Border as a 
hyperbole, do you feel that is correct?
    Chief Provost. No. I would disagree wholeheartedly with 
that. This crisis, as I said before, is like nothing I have 
seen in my 25 years. It truly is a crisis. I have been saying 
that since at least February to Congress when I testified back 
then.
    We need your support. We need the funding as well that you 
have mentioned to support throughout DHS, not just for the 
Border Patrol, because when my partners don't have the funding 
they need, it negatively impacts my operations as well. Because 
I am the only one--the Border Patrol is the only one who can't 
say no. When these folks are coming in, they end up in our 
custody and our care, and we can't say no. So I need funding as 
well for my other partners along the way, ICE, HHS to be able 
to do their portion of this, automatic way through DOJ.
    Mr. Joyce. Thank you, Chief Provost. Thank you for 
addressing the real crisis that you and your team face.
    Chief Provost. Thank you.
    Mr. Joyce. Madam Chairwoman, I yield.
    Miss Rice. Thank you. The Chair now recognizes for 5 
minutes the gentleman from California, Mr. Correa.
    Mr. Correa. Thank you very much, Madam Chair.
    I want to thank our witnesses, Chief Provost, for being 
here today. I do a lot of good work with your folks out in 
Orange County as well as at the border of San Ysidro.
    Secretary of Defense, also thank you very much.
    General McGuire, I want to thank all of you for your 
service to our country.
    You are absolutely right, Chief, we do have a crisis 
unprecedented. I think it is one not just in our part of the 
world but Central America we have, what, 2 million refugees, 
Venezuelans spread around Central America. When you see this, 
when you see violence you see people doing what they need to 
do, which is flee for their lives. So this is a challenge for 
all of us.
    Chief, President Trump on June the 8th praised Mexico for a 
huge deal in immigration. He says, and this is New York Post, 
June the 8th: Mexico agrees to keep Central America migrants 
seeking asylum in the U.S. on the Mexican side of the border 
until their cases are decided. Tell me how this will affect 
your job or how we are going to implement this new immigration 
policy.
    Chief Provost. You are--the program that you are 
discussing, Congressman, is a program that we have been working 
with the Government of Mexico on certain individuals.
    Mr. Correa. Before June the 8th?
    Chief Provost. Yes, sir.
    Mr. Correa. How long have you--so was it a big deal on June 
the 8th, or was it a deal that had already been in the works?
    Chief Provost. The Government of Mexico has agreed to 
expand that operation. We had been doing it in--with California 
and as well as El Paso.
    Mr. Correa. How are they expanding it?
    Chief Provost. Accepting more individuals back to wait for 
their hearings.
    Mr. Correa. So they were--how many were they accepting and 
how much are they----
    Chief Provost. There wasn't a set number per se, but we had 
started it in California and in the El Paso area.
    Mr. Correa. If you don't--and I am not trying to be 
argumentative with you. I would love to talk to you about this 
off-line.
    Chief Provost. Certainly.
    Mr. Correa. But I am trying to figure out, as this program 
expands and this humanitarian crisis in terms of these refugees 
being now housed, I should say, on the Mexican side, how is 
that going to address our resource allocation north and maybe 
in the Southern Border to make sure we do the right thing when 
it comes to a humanitarian crisis?
    Chief Provost. Well, we work very closely with the 
Government of Mexico when it comes to----
    Mr. Correa. Do you have any specifics on that, though?
    Chief Provost. Are you asking for numbers, or are you 
asking for----
    Mr. Correa. Specific, yes. Do we have any thoughts of how 
we are going to implement this expanded plan?
    Chief Provost. Yes. We have coordinated with the Government 
of Mexico. It is dependent upon them having the ability to take 
a certain number each day. We have already expanded that 
number. It does vary from day to day because it is dependent on 
numerous factors.
    Mr. Correa. Let me shift here real quick. I have got 2 
minutes, unfortunately.
    Secretary Kelly, when he was head of Homeland Security, he 
was in this committee and I asked him a question. In my words, 
his answer--we talked about border security--he said: It is not 
about border security. It is about regional security and 
coordinating with our allies around the world. He considered 
Mexico as one of our allies.
    You mentioned your issue is you don't know--you are 
concerned about the things you don't know. So my question to 
you would be, are you coordinating with the Mexican authorities 
to identify, and are you in coordination from Mexico and maybe 
Colombia on the issues of immigration and possible drugs?
    Chief Provost. So we have coordinated with Mexico for 
years, and we work very closely with our partners at--in 
Mexico. We also have individuals stationed world-wide----
    Mr. Correa. We are not going at this alone. We are not 
going at this alone.
    Chief Provost. We have individuals stationed world-wide in 
various countries specific to immigration issues, drug 
trafficking, and the such, working closely with various 
governments.
    Mr. Correa. I am glad to hear you say that because when I 
was in San Ysidro about 6 months ago, I went in, and I looked 
at your station there, and I looked at their board. They have a 
black board or white board of the names of the individuals they 
had actually apprehended that evening or the evening before. 
Half the names were Hispanic. The other half were actually 
Indian surnames. I say this to you because you are right when 
you talk about this refugee crisis is not just regional. I 
think it is world-wide.
    Finally, in the 20 seconds that I have, another article in 
The Wall Street Journal, 2 days ago: ``U.S. Seizes Massive Haul 
of Cocaine Aboard a Ship in Philadelphia.'' This is the latest 
in a series of large cocaine busts along the East Coast.
    You mentioned some numbers on drug seizures. How would you 
compare the drug seizures along the border inland versus those 
at sea?
    Chief Provost. Well, it would be difficult. I don't want to 
speak for my partners at the ports of entry----
    Mr. Correa. Because I have talked to the Coast Guard my 
subcommittee addresses, and they have told me that the seizures 
off their coast are record-breaking as well.
    Chief Provost. I would say that we have--are having a lot 
of seizures everywhere, sir.
    Mr. Correa. Thank you very much, and I look forward to 
talking to you off-line a little bit more. I yield.
    Miss Rice. Thank you.
    The Chair now recognizes for 5 minutes the gentleman from 
Mississippi, Mr. Guest.
    Mr. Guest. Thank you, Madam Chairman.
    To all of the witnesses, first, I want to thank you for 
your service to our country. I want to thank you for what you 
are doing as you are attempting to manage what is a very 
difficult situation along our Southwest Border. I want to speak 
a little bit on drugs, kind-of follow up on the question that 
you were just asked.
    Do we continue to have a drug crisis along our Southwest 
Border?
    Chief Provost. Yes.
    Mr. Guest. It would be to each witness. Would you agree--
would each witness agree that we currently have a drug crisis 
along our Southwest Border?
    Chief Provost. Yes, I would agree.
    Mr. Guest. General, I think you addressed that in your 
report that--or your written testimony that you gave. You state 
that, through fiscal year 2019, with the National Guard 
support, CBP has over 26,500 apprehensions, 18,000 pounds of 
marijuana, methamphetamines, and fentanyl have been seized. 
Could you expand on that just a little bit, please, sir?
    General McGuire. Those are the numbers that we have through 
the Counter Drug Task Force and working with a multitude of law 
enforcement, both Federal, State, and local entities. The flow 
of illicit narcotics continues on the Southwest Border, and 
unfortunately, the Arizona corridor is a heavily-trafficked 
corridor. There have been quite a bit of violent activity in 
that area over the last 6 years. Most recently with the opioid 
crisis, the huge increase in Mexican black tar heroin has been 
the one thing that we have seen as a big uptick over the last 2 
years.
    Mr. Guest. Chief, maybe you can speak on this. How does the 
current immigration crisis that we are seeing along our 
Southwest Border, how does that affect your operations as you 
attempt to stop the flow of illegal drugs into our country?
    Chief Provost. It is pulling my manpower away from the 
ability to deal with the border security mission. I can tell 
you that the smugglers are certainly taking advantage of that 
while my men and women are dealing with the humanitarian 
crisis.
    We have had examples where they have run large groups. We 
have apprehended over 193 groups of 100 people or more at a 
time already this year, fiscal year to date. They will run a 
large group of people, and then, while my agents are distracted 
dealing with that, they are running narcotics in other areas, 
and this is a tactic that they use.
    Mr. Guest. So, because of a lack of manpower to basically 
perform both missions simultaneously----
    Chief Provost. Yes, sir.
    Mr. Guest [continuing]. The drug cartels are using the 
human trafficking and the immigration as a way to distract, to 
tie up your manpower, your resources. Then at the same time, 
they are using that as an attempt or an ability to smuggle 
illegal drugs in our country. Would that be correct?
    Chief Provost. That is correct.
    Mr. Guest. You are saying that the drug cartels and drug 
organizations in Central and South America are aware of this 
problem, and they are using this problem as a way to continue 
to get illegal drugs into our country?
    Chief Provost. Yes, they are.
    Mr. Guest. How have you seen this recent crisis that we are 
experiencing today, how does it differ from past immigration 
crises that we have seen along our bother?
    Chief Provost. The key is the demographic shift. When we 
have had numbers of--and it was mentioned earlier of a million 
apprehensions previously--we have--that demographic has been 
generally single adult Mexican nationals who could be 
voluntarily returned and many of them were.
    It also was a difference of--the numbers are--I would--I 
call them apples and oranges. You are comparing apples and 
oranges. I personally would catch the same group in Douglas, 
Arizona, back in the 1990's 3 times, so that was counted as 3 
apprehensions. This--the numbers that we are catching now do 
not have a--we do not have a high re-apprehension rate because 
most of them are being brought into the country.
    So the demographic has changed. It takes a lot more for my 
manpower to process these individuals. Then there is the 
humanitarian care issues that we are dealing with too and the 
time that it takes to deal with that, 76 trips to the hospital 
a day with individuals that we are apprehending.
    Mr. Guest. Chief, too, just very quickly, before my time is 
up, if additional funding was appropriated by Congress, could 
you use additional manpower along our Southwest Border to 
prevent illegal drugs from flowing into our country?
    Chief Provost. Most definitely.
    Mr. Guest. If Congress were to change our current 
immigration laws or asylum laws so that we did not have the 
flood of individuals coming into our country seeking asylum, 
would those changes, in your opinion, would it also help you 
and your agency better be able to keep out illegal drugs from 
coming into America?
    Chief Provost. Yes, it would.
    Mr. Guest. Thank you, Madam Chairman. I yield back.
    Miss Rice. Thank you.
    The Chair now recognizes for 5 minutes the gentleman from 
California, Mr. Peters.
    Mr. Peters. Thank you, Madam Chair and Ranking Member 
Higgins, for allowing me to join the subcommittee today.
    The San Diego sector has seen tens of thousands of 
migrants, including unaccompanied children, family units, and 
single adults arrive at our border since October. The city and 
the county of San Diego, the State of California, and many 
local organizations of volunteers have stepped in to take care 
of the migrants entering the community. Certainly grateful for 
their dedication and hard work.
    The relationship between the CBP and the Armed Services is 
not new in San Diego, as you well know. Particularly, I visited 
with Border Patrol officers most recently in March and saw how 
the Coast Guard supports border security operations in a pretty 
seamless way. The Coast Guard Medical Corps has been asked to 
assess CBP's medical programs, which is critical to make sure 
that the migrants are being taken care of, especially after 
these treacherous journeys.
    I think the concern we have is that the Federal Government 
has relied on its military forces to enhance enforcement 
outside of the normal relationship and that maybe we are 
deploying the military in places where that is really not the 
appropriate personnel. I want to talk a little bit about that 
today.
    Mr. Salesses, the DoD is currently reviewing, I understand, 
a request to house an additional 1,400 accompanied--
unaccompanied children. Is that correct?
    Mr. Salesses. Sir, that has actually been approved. We are 
going to house those children at Fort Sill----
    Mr. Peters. Great.
    Mr. Salesses [continuing]. And they should start being 
housed there sometime mid-July, sir.
    Mr. Peters. So tell me how you assign the duties. How does 
the Department work with CBP or HHS to set up and maintain the 
facilities, and who staffs them and who oversees it?
    Mr. Salesses. So, sir, HHS is responsible for the children, 
as you point out, and we work very closely with them. They come 
to us and ask that we identify facilities and potentially land 
to house the children. They would establish soft-sided 
facilities if they were going to use the land.
    What we have done is that they go out and they do a site 
assessment at a military facility like they did at Fort Sill. 
They look at the facilities that are available to them to house 
the children. They make an assessment based on the location and 
their ability to provide the services that are needed. DoD does 
not provide any services. We just provide the facility. They 
provide the care to the children. That is the way that it----
    Mr. Peters. I want to say that, when I visited the border 
in March we--it was very--made very clear to us that the DoD 
understands this role. They were providing logistics support 
and reconnaissance, and I guess that that is within their scope 
of their expertise.
    But the other thing we heard, Chief Provost, was that there 
were authorized positions in CBP that you couldn't fill. So I 
understand that there must be some obstacles to getting people 
hired. Can you tell me what those are?
    Chief Provost. Well, certainly. There is a lot of 
competition in the law enforcement world in general right now 
when comes to hiring? That being said, we have made--last year 
was the first year we made progress. We hired more people than 
we lost, and we are on track to do that again this year. But I 
certainly need many, many more resources.
    We have expanded our recruitment program. We are seeing 
more individuals come into the pipeline, as we would call it. 
My academy is currently full, which is a good sign, first time 
it has been in a few years. All of the classes are full through 
the fiscal year, so I am happy to see those kinds of numbers 
coming in. But it does take time to hire for Federal law 
enforcement and particularly into CBP through the process. We 
have expedited the process, the hiring process, and taken 
several steps in that area as well.
    Mr. Peters. It would be my preference and I suspect that 
most of my colleagues would like to see CBP doing the CBP jobs 
and for you to hire up so that the military could go back to 
more characteristically military functions rather than border 
staffing.
    But the other side of that is, is this processing 
coordinator, which is a new role too for CBP. You may have 
touched on this with Ms. Torres Small, but are the 
qualifications going to be different for typical agents for 
that kind of position?
    Chief Provost. It is a lesser qualification, and Ms. Torres 
Small did ask about it. We are in the process of finalizing 
exactly what that position will be like, the training that is 
involved. But the duties will be to be able--the position is 
there so that I can put my Border Patrol agents back doing 
their main job.
    Mr. Peters. Right. What would be the expectation about the 
processing coordinator developing relationships with local 
organizations that are providing these kinds of humanitarian 
services?
    Chief Provost. I cannot say at this time in relation to 
working with them. I know, you know, we work very closely with 
several nongovernmental organizations across the Southwest 
Border.
    Mr. Peters. I have run out of time, but I just ask you to 
look at that because a lot of people are on the ground 
responding to the Trump administration's change of policy back 
in October. I think we can learn a lot from each other, and I 
look forward to that.
    I yield back. Thank you, Madam Chair.
    Miss Rice. Thank you.
    The Chair now recognizes for 5 minutes the gentlewoman from 
Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. I would like to thank the Chairwoman for 
her courtesies extended, and I want to thank the Ranking Member 
for his.
    Also let me thank all of the witnesses that are here today 
for their service to the Nation.
    This is a committee that I have served on before in the 
midst of, however, the heinous and terrorist act of 9/11 as 
this whole department was being created, so there is a long-
standing relationship with both the Homeland Security 
Department, its creation, the broadness of its jurisdiction, 
and then, of course, the committee that has oversight. I would 
say that, though we have certainly had common interests with 
the Department of Defense, this is an issue of the utilization 
of the Defense Department has always been of concern.
    So let me, first of all, ask, to General McGuire, how many 
troops are there on the border now?
    General McGuire. We currently have 564 Arizona soldiers and 
airmen deployed in our--or 546. We have a resource allocation 
and could be up to 764 in Arizona. The total number between 
Arizona and Texas operating under gubernatorial authority, I 
think, is just over 2,000.
    Ms. Jackson Lee. So these are National Guard?
    General McGuire. All of the forces that are subordinate to 
Governor Ducey and myself are National Guardsmen. There are 
additional title 10 active component, Mr. Salesses has 
mentioned, primarily Marine Corps and Army folks don't have 
those specific numbers.
    Ms. Jackson Lee. Are they in the hundreds? You are saying 
there is over 2,000 military personnel?
    Mr. Salesses. Ma'am, I could--if it is helpful, I can 
answer those questions for you, ma'am.
    Ms. Jackson Lee. Yes.
    Mr. Salesses. Yes, ma'am. So there is 2,700 active-duty 
military members deployed in support of CBP. They are deployed 
in all 9 sectors and all 4 border States. As General McGuire 
pointed out, there is roughly 2,000 National Guard personnel 
deployed. The predominance of National Guard folks that are 
deployed are military members that are deployed in Texas and 
Arizona. There are a small number in California and New Mexico.
    Ms. Jackson Lee. All right. So the larger numbers are in 
Arizona and Texas. Who is defining on a day-to-day basis the 
role that the military plays?
    Mr. Salesses. Ma'am, that----
    Ms. Jackson Lee. Well, first, there is a leadership 
directive from Washington, I assume. Who is doing that, but who 
is giving them assignments day-to-day?
    Mr. Salesses. The assignments that are happening day-to-day 
are done at the operational level. We receive requests--the 
Department of Defense receives a request from the Department of 
Homeland Security for the specific requirements that they would 
like us to assist with, whether that is helicopters or mobile 
surveillance camera operators, the type of military support 
that we are providing right now.
    That is approved by the Defense Department, by the 
Secretary of Defense, and then the operational commanders below 
that, in this case, the Northern Command for the active 
component. The individual TAGs, like General McGuire, who is 
managing the National Guard for Arizona, and the TAG from Texas 
is managed----
    Ms. Jackson Lee. Thank you. My time is short, so let me----
    Mr. Salesses. Yes, ma'am.
    Ms. Jackson Lee. I appreciate it.
    Chief, let me ask you questions very quickly. People are 
appalled, and we will be providing as much money--I want to put 
on the record, it shouldn't be a Republican or Democratic 
matter, but the conditions of the border are compounded by the 
administration's rules and policies and precipitous 
announcements.
    Tell me, have you gotten a more credible health structure? 
When I was there, the Coast Guard were working off of a table 
with some chairs as it relates to health care. Then have you 
improved the conditions that women and children are living in, 
particularly those who manage to get across the border? I know 
there are conditions on the other side of the border with 
Mexico, but the conditions and the visuals are dastardly, and 
children shouldn't be treated that way. So if you can answer 
that, and then a second component is, what participation will 
you have if the President goes ahead with, again, a thoughtless 
proposal of deporting 1 million people next week? What role 
will you have, Chief?
    Chief Provost. If I may address the--first and foremost, 
the role of interior enforcement is Immigration and Customs 
Enforcement.
    Ms. Jackson Lee. I know it is, but they have to cross the 
border, so you all are at the border.
    Chief Provost. So----
    Ms. Jackson Lee. If they are not flying, they are crossing 
the border. I understand that.
    Chief Provost. I do not have a role in relation to----
    Ms. Jackson Lee. So you have not heard from them on the 
policy as to what you all would be doing?
    Chief Provost. That is not something that--within CBP 
policy--that CBP----
    Ms. Jackson Lee. That you have heard that you would be 
participating in. You have not heard anything?
    Chief Provost. I have not heard that.
    Ms. Jackson Lee. All right. Then could you go on----
    Chief Provost. To address the issues--and you point out 
very relevant concerns that we all have. My facilities were 
never built to house this demographic. They were built in the 
1980's and 1990's, mainly focused on housing single adults.
    Once again, CBP does not do detention. It is my goal to get 
everybody out of my custody and care as quickly as possible. 
This is why Health and Human Services, when it comes to 
unaccompanied children, needs the beds to be able to take them 
into their care. When it comes to single adults, I need ICE to 
have funding. The family units we are processing and removing 
and releasing as quickly as we possibly can.
    That being said, we have added some soft-sided structures 
to expand. We have added shower trailers, things like that, all 
of the consumables for humanitarian care. This is part of the 
reason that I need funding to help deal with this humanitarian 
crisis.
    On the medical, we have expanded the contract. We have a 
medical contract. We have expanded that. We are continuing to 
try to expand that further. My facilities are restricted 
somewhat in relation to what I have available for them to work 
in, but we are trying to do the best that we can with what we 
have.
    Ms. Jackson Lee. Well, the disaster supplemental is being 
worked on. You are absolutely right, we should in a bipartisan 
manner, nonpartisan manner get you the dollars that you need to 
deal with the population that you have. You are not 
establishing the policy. So I hope that we can work together to 
get that done.
    Thank you, Madam Chair, very much.
    Miss Rice. Thank you.
    The Chair now recognizes for 5 minutes, the gentleman from 
Texas, Mr. Green.
    Mr. Green of Texas. Thank you, Madam Chair. I thank the 
witnesses for appearing as well.
    I too would like to echo the premise that this is not about 
conservatives or liberals, Democrats or Republicans. It is 
really about people and about our border. I believe that we 
have a responsibility to secure our border, and I believe we 
also have a responsibility to deal with refugees, persons who 
are fleeing harm's way.
    My suspicion is that each of you would concur with the 
necessity to secure the border as well as follow the law and 
deal with persons who are fleeing harm's way. Now, if someone 
differs with me on what I have said, I would kindly ask you to 
respond. Thank you. I take it you agree with me.
    A lot of what we are doing in responding is based upon 
perceived facts, perceived facts. You all are honorable people 
and you deal with facts. We do have some porous borders south 
of Mexico. Is it fair to say that El Salvador has a porous 
border? I was there just recently. Chief, would you kindly 
respond?
    Chief Provost. Yes, I would say so.
    Mr. Green of Texas. Is it fair to say that they don't have 
the level of border security that we have?
    Chief Provost. I am not an expert on their security, but I 
would say that is correct.
    Mr. Green of Texas. Same thing would probably apply to 
Honduras and Guatemala. That would be my speculation. Like you, 
I am not an expert, but I have been reading about these things 
and it seems like they have some porous borders, and that 
contributes, to some extent, to what is happening at our 
border. Fair statement?
    Chief Provost. Yes, I would certainly say--as I stated in 
my opening statement, there are many individuals, not just the 
Northern Triangle folks, that are traversing through those 
countries to come up to our border.
    Mr. Green of Texas. Major, would you concur that we have 
these problems with these countries and their borders?
    General McGuire. Congressman, I have only visited 
Guatemala. I can't discuss at all El Salvador and Honduras, 
but, yes, I have been briefed that they have similar problems 
with an inability to secure crossborder transnational activity.
    Mr. Green of Texas. It seems to me that our military was 
deployed based upon facts that were submitted. Is that a fair 
statement in terms of the deployment of the military conditions 
at our border? Is that a fair statement?
    Mr. Salesses. Yes, Congressman, it is.
    Mr. Green of Texas. One of the facts that seem to be in 
dispute is the fact that our border is the weakest in the 
world. Our border is not weaker than Honduras or El Salvador, 
Guatemala. We have a border that we want to secure, but I think 
we should acknowledge that it is not the weakest in the world. 
If you think our borders are the weakest in the world, please 
speak up. I take it you agree that it is not the weakest in the 
world.
    I mention this not because of your honor and your 
integrity, but the Chief Executive Officer of the United States 
of America, known to all of us as the President, that is his 
statement. He made some of his decisions based on his belief 
that our border is the weakest in the world. We ought not 
deploy our assets based upon fallacious information. Assets 
should be deployed based upon certainty and facts.
    I lived around military people for a good deal of my life, 
all honorable people. This was not a fair statement to be 
utilized to deploy our assets, the weakest in the world. We 
don't have the weakest border in the world. I do believe that 
there are some things we can do, but we ought not fabricate 
stories to deploy assets.
    I yield back the balance of my time.
    Miss Rice. Thank you.
    We are going to go into a second round of questioning. I 
recognize myself for 5 minutes.
    Mr. Salesses, on May 8, 2019, Acting Secretary Shanahan 
issued a memo conveying a new policy for sharing information 
with Congress and the GAO, the Government Accountability 
Office. This policy states that access to plans, operational 
orders, and Executive Orders will be limited based on a number 
of factors and could be used to limit access to important 
information needed to support Congressional oversight. Can you 
tell me what those limitations are?
    Mr. Salesses. Congresswoman, I don't know what those 
limitations are. I do know that we are working very closely 
with the GAO right now to share information on what the Defense 
Department is doing. I know there is a GAO audit under way. I 
have met with GAO personally. We do have a process in place to 
share a lot of information that has been published by the 
Defense Department, and we are continuing to do that. I don't 
know the specifics of the memo in regards to what will be 
shared and not shared.
    Miss Rice. Were you part of putting that together? Were you 
consulted at all?
    Mr. Salesses. The memo, no, ma'am, I wasn't.
    Miss Rice. So you can't tell us right now what the 
limitations were that then-Acting Secretary Shanahan was 
talking about?
    Mr. Salesses. No. But I am sure I can find out and provide 
that information.
    Miss Rice. Well, if you could please let the committee 
know----
    Mr. Salesses. Absolutely, ma'am.
    Miss Rice [continuing]. Because it seems to me that there 
are far-reaching implications if there are going to be 
limitations put on information sharing for this committee to do 
our appropriate oversight. So I would appreciate you sharing 
with us those limitations.
    In response to DHS's April 2019 request for assistance, 
Acting Secretary Shanahan announced that DoD would make an 
exception to its practice of prohibiting DoD personnel from 
serving in roles that requires interaction with migrants in 
their daily activities. What limitations or restrictions remain 
in place for DoD personnel who are deployed to the U.S.-Mexico 
border, and what are the DoD's red lines for what active-duty 
personnel cannot do in terms of border operations?
    Mr. Salesses. Well, specifically, as it relates to that 
request, that was the request for the drivers. We are going to 
provide 160 drivers. We are also providing 100 military 
personnel to assist with handing out meals. We have worked very 
closely with DHS and CBP in the conduct of our military 
personnel that will be in and around migrants specifically on 
buses.
    The Border Patrol will have a Border Patrol agent. There 
will be no custodial requirements for any DoD personnel in that 
process of either handing out the meals of those or driving the 
buses, and that is what that is focused on, ma'am.
    Miss Rice. Ms. Provost, or Chief Provost, do you have 
anything to add to that?
    Chief Provost. I would just say that is correct. There are 
certain duties that, of course, are inherently law enforcement-
related, and we retain those duties. Mr. Salesses was exactly 
correct on how that is being carried out when it comes to 
transport and the meal prep and assistance.
    Miss Rice. OK. Thank you.
    Mr. Salesses, if you could follow up and provide the 
committee with those limitations that we spoke of before, I 
would appreciate that.
    Mr. Salesses. Yes.
    Miss Rice. Thank you. I now--the Chair now recognizes the 
Ranking Member, Mr. Higgins.
    Mr. Higgins. Thank you, Madam Chair.
    On April 4, 2018, President Trump launched Operation 
Guardian Support, which directed the Secretary of Defense to 
deploy National Guard personnel under title 32 authority to 
support Customs and Border Protection in securing in the 
Southwest Border. Operation Guardian Support released Border 
Patrol agents from non-law enforcement duties, allowing them to 
focus on border security.
    Chief Provost, would you agree with that assessment?
    Chief Provost. Yes.
    Mr. Higgins. Does that clarify what we are talking about 
today regarding DoD support?
    Chief Provost. Certainly, as well as other support.
    Mr. Higgins. My colleague mentioned the need to return to--
I believe the quote was military role rather than border 
staffing. Let's clarify for the American people watching 
please. Mr. Salesses, you are the Deputy Assistant Secretary of 
Defense for Homeland Defense Integration and Defense Support of 
Civil Authorities for DoD. Is that correct?
    Mr. Salesses. That is correct, sir.
    Mr. Higgins. The DoD forces that are deployed to assist in 
Operation Guardian Support, are they not serving in MOS-
specific, Military Operational Special-specific roles?
    Mr. Salesses. They are providing support to DHS.
    Mr. Higgins. According to their MOS?
    Mr. Salesses. In the vast majority of them, yes, sir.
    Mr. Higgins. In other words, you have pilots and air crews 
flying planes. You don't have them doing vehicle maintenance, 
do you?
    Mr. Salesses. There are individuals doing vehicle 
maintenance.
    Mr. Higgins. You have vehicle maintenance MOS guys doing 
vehicle maintenance, right?
    Mr. Salesses. We do, yes, sir. Correct, sir.
    Mr. Higgins. You have truck driver MOS driving trucks. You 
don't have them monitoring cameras. So, just to clarify for 
America, the DoD personnel deployed in Operation Guardian 
Support are performing their military role according to their 
training. They are not just randomly performing border 
staffing. Is that correct?
    General, please answer.
    General McGuire. Yes, to the max extent possible, we align 
them with their MOS. So an 88 Mike truck driver will be driving 
heavy trucks. An engineering soldier will be operating heavy 
equipment to support movement of our formations. Our aviation 
maintenance guys will be repairing the helicopters that we 
sustain. The pilots are flying them.
    Mr. Higgins. Thank you, General, for clarifying that.
    I would like to also clarify, my colleague, whom I greatly 
admire, Mr. Green--I wish he was here--he quoted the President 
as saying that we have the weakest border in the world. I would 
just like to clarify that the quote was actually that we have 
the weakest immigration laws anywhere in the world and that 
Congress must change our weak immigration laws. I don't believe 
that the President has stated we have the weakest border or 
border security forces in the world, and I would just like to 
clarify that.
    Chief, again, please, share with us your thoughts on what 
would happen within your forces should Congress act and approve 
the supplemental funding and provide the resources that you 
have asked for. What would happen with your staffing, your 
morale? What would be the response within your ranks, ma'am?
    Chief Provost. Well, certainly part of what we have been 
asking for is more manpower as well as retention incentives to 
support the amazing work that my men and women are doing, but 
on top of that all of the support that is needed.
    Currently, I am using operational funds to deal with the 
humanitarian crisis, and that is taking away from equipment and 
resources that my men and women need to do their jobs, as well 
as, as I stated before, the funding that is needed for ICE. I 
need Immigration and Customs Enforcement to have beds to take 
these single adults out of my care and custody.
    I have approximately 8,000 in custody right now that I--I 
cannot release single adults. If I release single adults, we 
will lose the border. I have said that before. If we do not 
have some kind of consequence for violating the law and 
illegally crossing our borders, then I don't know what I am 
here for, in all honesty, or my men and women.
    Our border----
    Mr. Higgins. So would you----
    Chief Provost. Go ahead, sir.
    Mr. Higgins. So would you concur, Chief, that the 
sovereignty of our Nation is at stake here?
    Chief Provost. It is. I will tell you that the borders that 
I am concerned with and the ones that I am responsible for are 
our borders.
    Mr. Higgins. Thank you, Madam Chair.
    I appreciate the second round of questioning. I yield back.
    Miss Rice. Thank you, Mr. Higgins.
    The Chair now recognizes for 5 minutes the gentleman from 
Mississippi, Mr. Guest.
    Mr. Guest. Thank you, Madam Chairman.
    Chief, I just want to follow up a little bit on what 
Ranking Member Higgins was just talking about. In your written 
testimony on page 4, the conclusion, you state border security 
is National security. There is no difference. The crisis on our 
Southwest Border puts our National security at risk.
    I have repeatedly asked Congress to act to address the 
outdated legal framework and broken immigration system that has 
caused dangerous mass migration with no end in sight. Without 
legislative solutions, CBP expects the need for continued DoD 
support to help address the diversion of resources away from 
the border mission to the current humanitarian crisis.
    Just giving you a platform, Chief, what do you believe that 
we can do as Congress to help stem the crisis that we are 
seeing along our border?
    Chief Provost. Well, first and foremost, we need to address 
the legal framework issues, as I stated. Specifically, we have 
to have the ability to hold families together in an appropriate 
setting throughout an expedited immigration process. We have to 
do that. That is why families are flooding into this country 
because the word has gotten out, smugglers, you know, tell 
them, bring a child, you will be released into the country. We 
have to have that ability.
    We need to eliminate the double standard for noncontiguous 
unaccompanied children, and that is where we have no ability to 
return children to their homeland if they are not Mexico or 
Canada. We also need to tighten up the asylum process to 
address the low bar for credible fear, as many of those who 
meet the bar for credible fear do not meet the bar for asylum, 
as well as the supplemental funding that we so desperately 
need.
    Mr. Guest. Let me talk about that, Chief. Because Congress 
has failed to bring to the floor a bill that would provide the 
supplemental funding to deal with the on-going humanitarian 
crisis, has that made the situation along our Southwest Border 
better or worse?
    Chief Provost. It has definitely made it worse.
    Mr. Guest. Has our lack of ability to, again, pass a 
supplemental funding request, has that affected the morale of 
the men and women who serve in your agency?
    Chief Provost. Yes, I would most certainly say so. As I 
stated before, that supplemental is more than just the funding 
that I need because my partners don't have the funding they 
need. That has a negative impact on my work force. We have to 
maintain custody, for instance, longer of single adults, and 
that is not the responsibility of my men and women. They should 
be out securing the border.
    Mr. Guest. I want to talk a little bit about the detention 
centers there along the Southwest Border. Are you familiar with 
those detention centers, Chief?
    Chief Provost. Yes, sir.
    Mr. Guest. All right. Recently a Member of Congress has 
referred to those detention centers as concentration camps, 
remarks which myself and other Members of Congress find highly 
offensive. Would you care to comment on that matter, 
particularly in light of the fact that you and the 
administration has repeatedly requested supplemental funding so 
that we can better, in a more humanitarian fashion house 
individuals, Congress refuses to act upon that, and yet, we 
continue, as certain Members of Congress continue to criticize 
what you were doing with the limited resources that you have? 
So, in the last minute or so of my time, would you care to 
comment on those remarks?
    Chief Provost. I personally find them offensive. My men and 
women as well as the men and women in ICE are doing the best 
that they can with the limited resources that they have. I am 
calling agents who are bringing toys in for children and buying 
them with their personal money. Agents are bringing in clothes. 
They are feeding babies. They are doing--going above and beyond 
day in and day out to try to care for these individuals to the 
best of their ability, and this is not what they were trained 
or what they signed up for to do. So I am extremely offended by 
that--those comments.
    Mr. Guest. Well, Chief, again, I want to personally thank 
you and the men and women that serve under your leadership for 
the way that you all are handling this very difficult crisis. I 
want you to know that there are Members of Congress who will 
work to try to see that you have the resources that you so 
vitally deserve.
    Thank you, Madam Chairman. I yield back.
    Miss Rice. Thank you. I want to--I too want to thank all 
the witnesses for their valuable testimony and the Members for 
their questions. The Members of the committee may have 
additional questions for the witnesses, and we ask that you 
respond expeditiously in writing to those questions.
    Without objection, the committee record shall be kept open 
for 10 days. Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 11:55 a.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

      Questions From Chairwoman Kathleen M. Rice for Carla Provost
    Question 1. Please provide a copy of each of CBP's Border Security 
Improvement Plans and any updates or changes to each plan.
    Answer. Response was not received at the time of publication.
    Question 2. Please provide the committee with a copy of each 
Request for Assistance and any related attachments submitted by the 
Department of Homeland Security to the Department of Defense from April 
2018 to date.
    Answer. Response was not received at the time of publication.
    Question 3. Did DHS submit any request to DoD for support under 
section 284, which governs the DoD counterdrug activities, for border 
wall construction in 2017 or 2018? If so, please provide the committee 
with copies of each of these requests.
    Answer. Response was not received at the time of publication.
    Question 4. If Congress had appropriated $5.7 billion to DHS for 
construction of a border wall, would DHS have requested DoD's 
assistance for border wall construction under its section 284 authority 
for counterdrug activities?
    Answer. Response was not received at the time of publication.
    Question 5. What are DHS's future plans for DoD involvement on the 
U.S.-Mexico border?
    Answer. Response was not received at the time of publication.
    Question 6. What milestones, if any, are under consideration to 
draw down DoD presence in these areas?
    Answer. Response was not received at the time of publication.
      Questions From Chairman Bennie G. Thompson for Carla Provost
    Question 1. In a December 2018 request for assistance to the 
Department of Defense, the following statement is included: ``The 
successful deterrence at the [ports of entry] has resulted in attempted 
entry between the [ports of entry].'' This is given as a reason why DHS 
needs DoD support on the U.S.-Mexico border. Is CBP's ``successful 
deterrence'' at ports of entry helpful to Border Patrol's overall 
mission? Is the policy decision to meter people at ports of entry being 
reconsidered due to high volumes of people attempting to enter between 
ports of entry?
    Answer. Response was not received at the time of publication.
    Question 2. Please provide the committee with any documents DHS 
sent to DoD that requests the painting of the border wall for 
operational purposes.
    Answer. Response was not received at the time of publication.
      Questions From Ranking Member Clay Higgins for Carla Provost
    Question 1. Over 500 volunteers DHS-wide have been place along the 
border to help your agents with processing to return them to the line. 
Border Patrol agents from the Northern Border have been redirected as 
well. Unbelievably, in the past 2 DHS appropriations bills drafted by 
the Democrat majority, they have zeroed out funding for the hiring of 
additional Border Patrol agents.
    Are you feeling this on the front lines? How does this negatively 
impact our ability to secure the homeland?
    Answer. Response was not received at the time of publication.
    Question 2a. Apprehension numbers are on track to surpass 13-year 
highs. The demographic, high volume, and means by which individuals are 
arriving at and crossing the border illegally is forcing nearly half of 
your law enforcement officers to spend time processing migrants that 
your facilities are not equipped to hold. At least 6 of Border Patrol 
checkpoints used as a second layer of defense to interdict narcotics 
and other contraband have been closed due to resource constraints.
    Are you concerned that terrorists, gang members, criminals, and 
other National security or public safety concerns have an easier time 
of getting through our Southwest Border due to the current crisis?
    Answer. Response was not received at the time of publication.
    Question 2b. Have Known or Suspected Terrorist hits increased since 
last fall?
    Answer. Response was not received at the time of publication.
    Question 3. Is it safe to say on top of the more than 3,000 
identified fraudulent family units, more have slipped through the 
cracks? And, how does rapid DNA technology ensure the safety of migrant 
children?
    Answer. Response was not received at the time of publication.
    Question 4. Ten years ago, we mandated polygraph exams during CBP 
hiring to combat corruption. Are they still an effective tool or is it 
time to explore other options? And, would you support the formation of 
an expert working group to look at alternatives that preserve officer 
integrity but don't trip-up honest candidates?
    Answer. Response was not received at the time of publication.
    Question 5. Can you explain the operational requirement that led to 
painting the border wall as a result of RFA No. 7?
    Answer. Response was not received at the time of publication.
   Questions From Chairwoman Kathleen M. Rice for Robert G. Salesses
    Question 1. Please provide the committee with a copy of each 
response from the Department of Defense to each Request for Assistance 
from the Department of Homeland Security from April 2018 to date.
    Answer. Department of Defense responses are included in Enclosure 
1.*
---------------------------------------------------------------------------
    * Response has been identified as For Offical Use Only and has been 
retained in committee files.
---------------------------------------------------------------------------
    Question 2. The chairman of the joint chiefs of staff and the DoD 
comptroller submitted assessments to the Acting Secretary of Defense 
about using section 2808 to construct a border wall on May 10, 2019. 
Please provide the committee with a copy of each of these assessments.
    Answer. DoD is unable to provide the requested assessments because 
they are deliberative materials intended to inform a Secretary of 
Defense decision that he has not yet made. Such assessments have not 
been produced in related civil litigation, which remains on-going.
    Question 3. Please provide a copy of the Campaign Plan between DHS 
and DoD regarding the multi-year deployment of DoD to the Southwest 
Border to the committee.
    Answer. At this time, there is no multi-year Campaign Plan; DoD 
support to DHS is driven by evolving DHS requirements to address the 
crises at the Southwest Border.
    Question 4. What standards are used by the DoD to determine it can 
support a request for assistance from DHS? In addition to analysis on 
the impact these requests may have on readiness and resources, what 
policy deliberations are part of the process? How often does DoD 
reassess its support to DHS for Southern Border activities? Has DoD 
ever been unable to fulfill a request for assistance by DHS in the past 
2 years?
    Answer. As part of its standard request for assistance process, DoD 
evaluates all requests for assistance based on the following 
considerations: Legality; the potential for use of lethal force by or 
against DoD personnel; the risk to DoD personnel; cost to DoD; 
appropriateness; and potential effect on DoD's ability to perform its 
other primary defense missions. Recommendations to the Secretary of 
Defense concerning requests for assistance are coordinated within DoD 
with the Office of the Under Secretary of Defense (comptroller)/chief 
financial officer, the general counsel of the Department of Defense, 
the chairman of the joint chiefs of staff, and other officials, as 
appropriate, based on the specific request. DoD continually assesses 
the DoD capabilities and resources necessary to meet DHS support 
requirements, while mitigating the impacts on military readiness and 
considering on-going and future operational commitments. DoD has always 
been capable of fulfilling DHS requests for assistance; however, there 
have been occasions when DoD could not approve a DHS request. For 
example, DoD could not approve an October 25, 2018, DHS request for DoD 
to protect U.S. Customs and Border Protection (CBP) personnel 
performing their Federal functions within property controlled by CBP at 
or adjacent to designated U.S. ports of entry because such support 
first required the President's approval.
    Question 5. What tasks is the military performing at the Southern 
Border that DHS does not have the capability to do?
    Answer. Generally, DHS requests for DoD assistance seek additional 
capacity to augment DHS capabilities rather than military-unique 
capabilities.
    Question 6. Did DoD request an appropriation from Congress for 
border wall construction for fiscal year 2019? If not, why not?
    Answer. DoD's budget request for fiscal year 2019 did not include a 
request for border wall construction funding. At the time DoD submitted 
its fiscal year 2019 budget request, DHS had not requested assistance 
from DoD to construct border barriers.
    Question 7. When did DoD first consider supporting DHS's border 
wall construction efforts under section 284, which governs counterdrug 
activities for DoD?
    Answer. Section 284(b)(7) of Title 10, U.S. Code, authorizes the 
Secretary of Defense to, at the request of a Federal, State, local, or 
Tribal law enforcement agency, construct roads and fences and install 
lighting to block drug smuggling corridors across international 
boundaries of the United States. On February 25, 2019, DHS requested 
that DoD use this authority to construct fences to block DHS-designated 
drug smuggling corridors across the international boundary of the 
United States with Mexico. On March 25, 2019, after careful 
consideration, the Acting Secretary of Defense approved this request.
    Question 8. Do the current conditions on the border present a 
military threat to the United States?
    Answer. DoD support to CBP is being provided pursuant to the 
President's lawful direction, including his April 4, 2018, Presidential 
memorandum, ``Securing the Southern Border of the United States.'' In 
this memorandum, the President directed DoD to support DHS ``in 
securing the Southern Border and taking other necessary actions to stop 
the flow of deadly drugs and other contraband, gang members and other 
criminals, and illegal aliens into this country.'' This memorandum 
stated that ``[t]he security of the United States is imperiled by a 
drastic surge of illegal activity on the Southern Border'' and ``[t]he 
combination of illegal drugs, dangerous gang activity, and extensive 
illegal immigration not only threatens our safety but also undermines 
the rule of law.'' In addition, the President's February 15, 2019, 
National emergency declaration (Proclamation 9844) stated that ``[t]he 
current situation at the Southern Border presents a border security and 
humanitarian crisis that threatens core National security interests and 
constitutes a National emergency'' [emphasis added].
    Question 9. Does the military need a border wall to assist in 
supporting DHS at the border? Why or why not?
    Answer. On February 15, 2019, the President declared that a 
National emergency exists at the Southern Border of the United States 
that requires the use of the armed forces, making available certain 
emergency authorities, including Section 2808 of Title 10, U.S. Code 
(Proclamation 9844). At this time, the Secretary of Defense has not yet 
decided to undertake or authorize any barrier construction projects 
under Section 2808.
    Question 10a. On May 8, 2019, Acting Secretary Shanahan issued a 
memo conveying a new policy for sharing information with Congress and 
the Government Accountability Office. This policy states that access to 
plans, operational orders, and execute orders will be limited based on 
a number of factors and could be used to limit access to important 
information needed to support Congressional oversight.
    What limitations does Acting Secretary Shanahan's May 8 memo have 
on providing Congress, including the Government Accountability Office, 
documentation related to DoD's support of Southern Border operations?
    Answer. The May 8, 2019, memo sets out the factors considered when 
determining whether to disclose operational plans and execute orders, 
which are some of the most sensitive documents at DoD. Specifically, 
when a DoD component receives a Congressional request for access to an 
operational plan or execute order, the DoD component is required to 
forward the request to the under secretary of defense for policy 
(USD(P)) for appropriate action regarding that specific request. The 
USD(P) is required to coordinate responses to such requests with the 
chairman of the joint chiefs of staff, the assistant secretary of 
defense for legislative affairs, and the general counsel of the 
Department of Defense. In evaluating requests under this policy, the 
reviewing officials are required to consider a number of criteria, 
including: (i) Whether the request implicates Presidential decision 
making or the President's prerogatives as the Commander-in-Chief, such 
that coordination with White House staff is warranted; (ii) whether the 
possibility of disclosure presents an unreasonable risk to the conduct 
of operations, such as the exercise of the command function, force 
protection, operational security, or any other risk to the operation or 
personnel; and (iii) whether the request has been or may be reasonably 
accommodated by means other than providing the actual plan or order, 
such as providing a briefing.
    Question 10b. Has the Department given GAO access to critical 
execute and operational orders that establish the goals and parameters 
for personnel deployed to the Southern Border?
    Answer. DoD has accommodated all GAO requests for information 
consistent with the law and DoD policies.
    Question 10c. Please provide the committee with a copy of the May 
8th memo from former Acting Secretary Shanahan.
    Answer. Acting Secretary Shanahan's memorandum is included in 
Enclosure 2.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Question 11a. National Guardsmen called up under Title 32, under 
the command of their Governors, are technically allowed to carry out 
law enforcement duties. However, in both 2006 and 2010, the Department 
of Defense issued guidance that they would not conduct arrests on the 
border. This was intentional to avoid the impression of militarizing 
the border.
    Are National Guard personnel carrying weapons while they are 
operating in support of Border Patrol agents? And if so, what are their 
rules for the use of force?
    Answer. Decisions regarding the arming of National Guard personnel 
operating under the command and control of their Governor and the rules 
for the use of force will be informed by the mission circumstances and 
made by the respective Governor, in consultation with CBP.
    Question 11b. Are there other parameters or restrictions for the 
military personnel on this mission?
    Answer. Yes, there are other parameters and restrictions for 
military personnel supporting CBP. For example, although case-by-case 
exceptions can be made, National Guard personnel performing DoD 
missions supporting CBP at the Southwest Border under the command and 
control of their Governor do not conduct civilian law enforcement 
activities.
   Questions From Chairman Bennie G. Thompson for Robert G. Salesses
    Question 1. In regards to section 2808, has DoD lined up potential 
contractors so that contracts may be quickly awarded once a decision is 
made by the Secretary of Defense? If so, please provide this list of 
potential contractors to the committee.
    Answer. At this time, the Secretary of Defense has not yet decided 
whether to undertake or authorize any construction projects under 
Section 2808.
    Question 2. Is it possible that, despite the National emergency 
declaration issued in February, that the Acting Secretary will decide 
not to use any funds under section 2808 for border wall construction? 
Is that a realistic scenario?
    Answer. To use funds under Section 2808 for border barrier 
construction, the Secretary must determine that the proposed border 
barriers are necessary to support the use of the armed forces. That 
determination, which has not yet been made, will depend on an 
assessment of specific proposed border barriers. At this time, the 
Secretary has not yet decided whether to undertake or authorize any 
construction projects under Section 2808.
    Question 3. Please provide the committee with DoD's response to DHS 
requests that outlined the need for painting the border wall.
    Answer. DoD's responses to DHS requests for assistance are included 
in Enclosure 1.*
---------------------------------------------------------------------------
    * Response has been identified as For Offical Use Only and has been 
retained in committee files.
---------------------------------------------------------------------------
    Question 4. How is DoD preparing military personnel to operate in 
situations where they may encounter migrants?
    Answer. Military personnel are highly trained and, for the most 
part, require no additional training to provide such support to DHS. 
However, as a prudential matter, U.S. Northern Command conducts 
mandatory 2-day training with all military personnel deployed to the 
Southern Border before those personnel begin support to CBP.
    Question 5. How is DoD ensuring that military personnel are acting 
within their legal authorities once they are deployed?
    Answer. It is the immediate responsibility of unit commanders at 
all levels to ensure that their military personnel act in accordance 
with the law and DoD policies. In addition, the Department exercises 
oversight over on-going military support of CBP.
    Question 6. What is the protocol for if or when DoD personnel have 
direct contact with migrants? Are there tracking requirements or 
incident reports that military personnel need to file?
    Answer. Although case-by-case exceptions have been made, most DoD 
or National Guard personnel supporting CBP at the Southwest Border do 
not conduct civilian law enforcement activities or have physical 
interaction with migrants. For missions in which National Guard 
personnel under the command of their Governor are conducting law 
enforcement activities or in which DoD or National Guard personnel may 
have physical interaction with migrants, additional reporting is not 
required for contact that is necessary for the performance of such 
missions. Units executing such missions are expected to submit standard 
military mission reports. The Standing Rules for the Use of Force 
(SRUF), (Enclosures L and N (unclassified) to Chairman of the Joint 
Chiefs of Staff Instruction 3121.01B, 13 June 2005 (SECRET)) include 
reporting requirements for circumstances in which the use of force 
proved necessary.
    Question 7. What are the guidelines for use of force by military 
personnel at the Southern Border? Please provide a copy of these 
guidelines to the committee.
    Answer. The Standing Rules for the Use of Force (SRUF), (Enclosures 
L and N (unclassified) to Chairman of the Joint Chiefs of Staff 
Instruction 3121.01B, 13 June 2005 (SECRET)) remain in effect for land- 
and air-based operations in the United States. No specific additional 
guidance was determined to be necessary for DoD support to CBP at the 
Southern Border of the United States. National Guard personnel 
operating under the command of their Governors would follow their 
State's rules for the use of force.
    Question 8. Please explain what would happen in a case where 
Federal Government personnel, such as Border Patrol agents, may need 
protection provided by the National Guard or active-duty soldiers.
    Answer. In cases where there is an emerging, imminent threat, the 
Standing Rules for the Use of Force (SRUF) (Enclosures L and N 
(unclassified) to Chairman of the Joint Chiefs of Staff Instruction 
3121.01B, 13 June 2005 (SECRET)) include guidance and protocols 
regarding active-duty military personnel use of force to protect 
others. National Guard personnel operating under the command of their 
Governors would follow their States' guidance and protocols on the use 
of force to protect others. In cases where DHS foresees a high risk of 
harm to U.S. Border Patrol agents, the President may authorize the use 
of active-duty military personnel to protect these agents while 
performing their lawful Federal duties. If the President authorizes 
such protection, DHS may submit a request for assistance to DoD. If 
approved, active-duty military personnel may provide the requested 
force protection support.
    Question 9. Previous National Guard deployments to the border have 
exceeded $1 billion. What estimates does DoD have for the current 
National Guard and active-duty solider operations on the border? Is it 
clear on which costs will be reimbursed? Why or why not?
    Answer. The total estimated cost of DoD National Guard support to 
CBP Operation Guardian Support through fiscal year 2019 is $350 million 
(fiscal year 2018, $103 million, and fiscal year 2019, $247 million). 
The estimated total fiscal year 2019 cost of DoD active-duty military 
support to CBP Operation Secure Line is $184 million. The DoD border 
support mission continues to evolve as DHS and DoD refine the 
operation. As a result, DoD is in the process of capturing requirements 
and estimating the potential costs. The actual final costs will depend 
on the total size, duration, and scope of DoD support.

                                 <all>
</pre></body></html>
